  September 15, 2005




Information Technology
Management
Report on Defense Civilian Pay
System Controls Placed in Operation
and Tests of Operating Effectiveness
for the Period October 1, 2004
through June 30, 2005 (D-2005-106)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit, Audit Followup and Technical Support at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact Audit Followup and
Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
Ideas and requests can also be mailed to:

                  ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4764




                                                                       September 15,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTR0LLER)JCHIEF FINANCIAL OFFER
               ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                 AND INFORMATION INTEGRATION)/DOD CHIEF
                 NFORMATION OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY
SUBJECT: Report on Defense CiviIian Pay System Controls Placed in Operation and
         Tests of Operating Effectiveness for the Period October 1,2004 through
         June 30,2005 (D-2005-106)

        We are providing this report for your information and use. No written response to
this report is required. Therefore, we are publishing this report in final form.
         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Michael Perkins at (703 1 325-3557 (DSN 22 1-3557) or Sean J . Keaney at
(703) 428- 1448 (DSN 328-1 448). The audit team members are listed inside the back
cover.

                                By direction of the Deputy lnspecior General for Auditing:


                                       kF
                                       >--
                                          g           w      -
                                            au3 J. Granetto, CPA
                                                                  M&
                                        Assistant Inspector General
                                        Defense Financial Auditing
                                                   Service
Table of Contents
Forward                                                                   i

Section I
      Independent Service Auditor’s Report                                1

Section II
      Description of DCPS Operations and Controls Provided by DFAS and
         DISA                                                            9

Section III
      Control Objectives, Control Activities, and Tests of Operating
         Effectiveness                                                   21

Section IV
      Supplemental Information Provided by DFAS and DISA                 73

Acronyms and Abbreviations                                               77

Report Distribution                                                      79
                                   FOREWARD
This report is intended for the use of Defense Finance and Accounting Service (DFAS)
and Defense Information Systems Agency (DISA) management, its user organizations,
and the independent auditors of its user organizations. DoD personnel who manage and
use the Defense Civilian Pay System (DCPS) will also find this report of interest as it
contains information about DCPS general and application controls.

DCPS is a pay processing system used to pay DoD civilian employees, as well as
employees at several other Federal entities, including the Departments of Energy and
Health and Human Services, and the Executive Office of the President. In 2004, DCPS
processed approximately $42.3 billion of pay transactions and paid approximately
762,000 employees on a bi-weekly basis.

The DoD Office of Inspector General (DoD OIG) is implementing a long-range strategy
to conduct audits of DoD financial statements. The Chief Financial Officers Act of 1990
(P.L. 101-576), as amended, mandates that agencies prepare and conduct audits of
financial statements. The reliability of information in DCPS directly impacts the Defense
Department’s ability to provide reliable, and ultimately auditable, financial statements;
which is key to achieving the goals of the Chief Financial Officers Act.

This audit assessed the application and general computer controls over DCPS and its
related processing. Those application and general computer controls are managed and
maintained by DFAS and DISA. This report provides an opinion on the fairness of
presentation, the adequacy of design, and the operating effectiveness of key application
and general computer controls that are relevant to audits of user organization financial
statements. As a result, this audit precludes the need for multiple audits of DCPS
controls previously performed by user organizations to plan or conduct financial
statement and performance audits. This audit will also provide, in a separate audit report,
recommendations to management for correction of identified control deficiencies.
Effective internal control is critical to achieving reliable information for all management
reporting and decision making purposes.

Certain DCPS general computer controls are maintained by DISA-Mechanicsburg.
DISA-Mechanicsburg was included in the scope of a separate DISA-wide general
computer controls audit that provided a Service Auditor’s Report, Report No.
D-2005-105, “Report on Defense Information Systems Agency, Center for Computing
Services Controls Placed in Operation and Tests of Operating Effectiveness for the
Period October 1, 2004 through April 30, 2005,” September 6, 2005. This DISA-wide
audit included certain general computer controls that were directly related to DCPS. In
order to reduce duplication of effort and minimize the audit footprint on DISA, the
DCPS-related general computer controls maintained by DISA-Mechanicsburg and
covered by the DISA-wide audit were excluded from the scope of this SAS 70 audit. The
control objectives that were not covered for DISA-Mechanicsburg as part of this audit
included:

       •   Control Objective 1: Risks are periodically assessed.

       •   Control Objective 3: A security management structure has been established
           and that Information security responsibilities are clearly assigned and
           expected behavior of all personnel is in place.


                                             i
       •   Control Objective 20: Passwords, tokens, or other devices are used to identify
           and authenticate users.

       •   Control Objective 46: Individuals requiring access to sensitive information are
           processed for access authorization in accordance with DoD personnel security
           policies.

       •   Control Objective 58: Access authorizations are appropriately limited.

       •   Control Objective 62: Incompatible duties have been identified and policies
           implemented to segregate these duties.

       •   Control Objective 63: System management job descriptions have been
           documented.

       •   Control Objective 64: System management employees understand their duties
           and responsibilities.

       •   Control Objective 65: Management reviews effectiveness of control
           techniques.

       •   Control Objective 66: Formal procedures guide system management personnel
           in performing their duties.

       •   Control Objective 68: Active supervision and review are provided for all
           system management personnel.

Certain control objectives listed above were still relevant to other locations included in
the scope of this DCPS audit (for example, the Technology Services Organization [TSO])
and are included in this report for those locations. In certain situations where the above
control objective would only apply to DISA-Mechanicsburg and was not tested, we
inserted “Control objective left intentionally blank” in order to preserve our control
objective numbering scheme. User organizations and their auditors who use this report as
part of their audit planning procedures should also read the Report No. D-2005-105,
“Report on Defense Information Systems Agency, Center for Computing Services
Controls Placed in Operation and Tests of Operating Effectiveness for the Period
October 1, 2004 through April 30, 2005,” September 6, 2005 to understand the design
and operating effectiveness of the general computer controls maintained by
DISA-Mechanicsburg.




                                            ii
Section I: Independent Service Auditor’s Report




                       1
                             INSPECTOR GENERAL
                            DEPARTMENTOFDEFENSE
                             400 ARMY NAVY DRlVE
                        ARLINGTON. VIRGINIA 22202-4704




                                                                      September 15,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTR0LLER)ICHIEF FlNANClAL OFFER
               ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                 AND INFOFtMATTON INTEGRAT1ON)JDOD CHIEF
                 PlFORMATPON OFFICER
               DRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE NFORMATTON SYSTEMS
                 AGENCY
SUBJECT: Report on the Defense Civilian Pay System Controls Placed in Operation and
         Tests of Operating Effectiveness for the Period October I, 2004 through
         June 30,2005

We have examined the accompanying description of the general computer and
application controls related to the Defense Civilian Pay System (DCPS) (Section 11).
DCPS is sponsored and used by the Defense Finance and Accounting Senice (DFAS)
and maintained and technically supported by the Defense Information Systems Agency
(DISA) and technical support elements of DFAS. As such, the DCPS general computer
and application controls are managed by both DISA and DFAS. Our examination
included procedures to obtain reasonable assurance about whether (1) the accompanying
description presents fairly, in all material respects, the aspects of the controls at DFAS
and DFSA that may be relevant to a DCPS user organization's internal controls as it
relates to an audit of financial statements; (2) the controls included in the description
were suitably designed to achieve the control objectives specified in the description, if
those lconltmls were complied with satisfactorily, and user organizations applied those
aspects of internal controls contemplated in the design of the controls at DFAS and
DISA; and (33 such controls had been placed in operation as of June 30,2005.
The control objectives were specified by the Department of Defense Office of Inspector
General (DoD OIG). Our examination was performed in accordance with standards
established by the American Institute of Certi fled Public Accountants and the standards
applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States, and included those procedures we considered
necessary in the circumstances to obtain a reasonable basis for rendering our opinion.
The accompanying description includes only those application control objectives and
related controls resident at the Charleston, SC; Pensacola, FL; and Denver, CO payroll
offices and does not include application control objectives and related controls at the
National Security Agency (NSA) payroll office. In addition, DCPS processes
approximately 140 interface files from DoD and external systems. Examples of these
interface systems include the Defense Civilian Personnet Data System, Automated Time
and Attendance and Product ion System, Automated Disbursing System, and the Defense
Joint Accounting System . The accompanying description does not include control
objectives and general and application controls related to the systems that interface with
DCPS. Our examination did not extend to the controls resident at the National Security
Agency payroll office and related systems that interface with DCPS.

Our examination was conducted for the purpose of forming an opinion on the description
of the DCPS general and application controls at DFAS and DISA (Section II).
Information about business continuity plans and procedures at DFAS and DISA, as
provided by those organizations and included in Section IV, is presented to provide
additional information to user organizations and is not a part of the description of controls
at DFAS and DISA. The information in Section IV has not been subjected to the
procedures applied in the examination of the aforementioned description of the controls
at DFAS and DISA related to their business continuity plans and procedures and,
accordingly, we express no opinion on the description of the business continuity plans
and procedures provided by DFAS and DISA.

As discussed in the accompanying “Description of DCPS Operations and Controls
Provided by DFAS and DISA” (Section II), DISA-Mechanicsburg has processes in place
for testing and implementing system software changes. System software change testing
results were not required to be documented and maintained. In addition, the charter for
the local Configuration Control Board at DISA-Mechanicsburg was not approved. As a
result, the design of the controls did not provide reasonable assurance that the control
objective “system software changes are authorized, tested, and approved and
documented before implementation” would be achieved.

In our opinion, the accompanying description of the general computer and application
controls at DFAS and DISA related to DCPS (Section II) presents fairly, in all material
respects, the relevant aspects of the controls at DFAS and DISA that had been placed in
operation as of June 30, 2005. Also, in our opinion, the controls, except for the design
deficiency referred to in the preceding paragraph, as described, are suitably designed to
provide reasonable assurance that the specified control objectives would be achieved if
the described controls were complied with satisfactorily and users applied those aspects
of internal control contemplated in the design of the controls at DFAS and DISA.

In addition to the procedures that we considered necessary to render our opinion as
expressed in the previous paragraph, we applied tests to specified controls, listed in
Section III, to obtain evidence about their effectiveness in meeting the related control
objectives described in Section III during the period of October 1, 2004 through June 30,
2005. The specific control objectives, controls, and the nature, timing, extent, and results
of the tests are documented in Section III. This information has been provided to DCPS
user organizations and to their auditors to be taken into consideration, along with
information about the user organizations’ internal control environments, when making
assessments of control risk for such user organizations.

In performing our examination, we identified the following operating effectiveness
deficiencies related to the controls described in the “Description of DCPS Operations and
Controls Provided by DFAS and DISA” (Section II):

       DCPS User Access
       The accompanying description includes control activities relating to DFAS
       processes for providing access to DCPS. For every DCPS user, DFAS required a
       Systems Access Authorization Request (SAAR) form be completed, indicating
       the user’s access to DCPS and the authorization by an appropriate supervisor
       granting such access. Upon examining a selection of 45 randomly selected SAAR

                                             4
forms for payroll office users’ access to DCPS, we identified seven SAAR forms
where the access granted in DCPS did not match the access authorized on the
SAAR form. In addition, one of 45 payroll office user’s SAAR forms selected for
testing did not contain a supervisor’s signature. Upon examining a selection of
45 randomly selected SAAR forms for non-payroll office users’ access to DCPS,
we identified four SAAR forms where the access granted in DCPS did not match
the access authorized on the SAAR form. In addition, four of the 45 non-payroll
office users’ SAAR forms could not be located. As a result, the following control
objectives that rely on this control may not have been fully achieved during the
period of October 1, 2004 through June 30, 2005:

       “Controls provide reasonable assurance that all application users are
       appropriately identified and authenticated. Access to the application and
       output is restricted to authorized users for authorized purposes,”

       “Controls provide reasonable assurance that changes to the payroll
       master files and withholding tables are authorized, input, and processed
       timely,” and

       “Controls provide reasonable assurance that data transmissions in DCPS
       from user organizations are authorized, complete, accurate and secure.”

DCPS Processing Error Monitoring

The accompanying description includes control activities relating to DFAS
procedures for processing errors from interfacing personnel systems. The
Personnel Interface Invalid Report (P6606R01) is a key control for monitoring
and resolving DCPS interface processing errors. At the DFAS-Denver payroll
office, the Personnel Interface Invalid Reports could not be provided for the
period October 1, 2004 through March 27, 2005, which represented 18 of the
45 reports randomly selected for testing. Furthermore, one of the 27 Personnel
Interface Invalid Reports for the period March 28, 2005 to June 30, 2005 could
not be located (leaving 26 reports available for review). The available Personnel
Interface Invalid Reports subsequent to March 27, 2005 were examined to
determine if the reports were annotated, indicating the report exceptions were
resolved. We identified that annotations on 23 of the 26 available Personnel
Interface Invalid Reports for the period of March 28, 2005 to June 30, 2005 did
not include the corrective actions taken, 18 out of the 26 Personnel Interface
Invalid Reports provided were not dated as completed, and 12 of the 26 Personnel
Interface Invalid Reports were not initialed as completed. At the
DFAS-Charleston payroll office, because of the inability of the document
management system that stores electronic copies of the Personnel Interface
Invalid Report to allow annotation of the Personnel Interface Invalid Reports, and
only a random review of the reports by management (instead of a review of all
reports), the audit team concluded that the controls are not in place to ensure that
the Personnel Interface Invalid Reports are properly corrected, annotated, and
reviewed by supervisors. Therefore, testing of the reports at the
DFAS-Charleston Payroll Office was not performed. At the DFAS-Pensacola
payroll office, 10 of the 44 Personnel Interface Invalid Reports selected for testing
were not available for review. The remaining 34 reports that were reviewed did
not always have the final resolution of errors annotated in the report. Without
documented evidence of supervisory reviews and actions taken to address items
on this report, there is a lack of a documented audit trail related to the use of this


                                      5
report as a control. As a result, the following control objectives that rely on this
control may not have been fully achieved during the period of October 1, 2004
through June 30, 2005:

       “Controls provide reasonable assurance that changes to the payroll
       master files and withholding tables are authorized, input, and processed
       timely,”

       “Controls provide reasonable assurance of the integrity and reliability of
       DCPS data for financial reporting purposes,”

       “Controls provide reasonable assurance that fiscal year-end, leave-year-
       end and calendar year-end processing occurs in accordance with
       established Government-wide and agency guidelines,” and

       “Controls are reasonable to ensure that transactions from interfacing
       systems are subjected to the payroll system edits, validations and error-
       correction procedures.”

DCPS Interfaces

All DCPS interfaces should have a documented Memorandum of Agreement.
The Memorandum of Agreement documents key information about an interface,
such as impacted parties, interconnection requirements, points of contact, security
requirements, technical platform information, interface file information, and
designated signatories. However, 43 out of 148 DCPS interfaces did not have a
documented Memorandum of Agreement in place. As a result, the control
objective “owners determine disposition and sharing of data” may not have been
fully achieved during the period of October 1, 2004 through June 30, 2005.

DCPS System Access

For every DCPS system support user at DISA-Mechanicsburg, DISA required a
system access request form (Form DD 2875) to be completed, including the
access the user required within DCPS and the appropriate supervisor’s
authorization granting such access. For four out of 45 DISA-Mechanicsburg
personnel haphazardly selected for testing, justification for access was not
detailed on the system access request form. As a result, the control objective
“access settings have been implemented in accordance with the access
authorizations established by the resource owners” may not have been fully
achieved during the period of October 1, 2004 through June 30, 2005.

DCPS Application Change Controls
Testing of DCPS application changes are required to be documented. Testing
documentation for 47 of 50 sampled items selected for testing could not be
provided by DFAS during the audit. As a result, the control objective “changes
are controlled as programs progress through testing to final approval to ensure
completeness, authorization, software quality requirements and validation
methods that are focused on the minimization of flawed or malformed software
that can negatively impact integrity or availability (e.g., buffer overruns) are
specified for all software development initiatives” may not have been fully
achieved during the period of October 1, 2004 through June 30, 2005.


                                      6
In our opinion, except for the deficiencies in operating effectiveness noted in the
preceding paragraphs, the controls that were tested, as described in Section 111, were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance
that the control objectives specified in Section 111 were achieved during the period of
October I , 2004 through June 30,2005. However, the scope of our engagement did not
include tests to determine whether contro! objectives not listed in Section I11 were
achieved; accordingly, we express no opinion on the achi wement of control objectives
not included in Section 111.
The relative effectiveness and significance of specific controls at QFAS and DISA, and
their effect on assessments of control risk at user organizations, are dependent on their
interaction with the internal control environment and other factors present at individual
user organizations. We have performed no procedures to evaluate the effectiveness of
internal controls placed in operation at individual user organizations.
The description of the controls at DFAS and DISA i s as of June 30,2005, and
information about tests of their operating effectiveness covers the period of October 1,
2004 through June 30,2005. Any projection of such information to the future is subject
to the risk that, because of change, the description may no longer portray the system in
existence. The potential effectiveness of specific controls at DFAS and DISA is subject
to inherent limitations and, accordingly, errors or fraud may occur and not be detected.
Furthermore, the projection of any concEusions, based on our findings, to future periods is
subject to the risk that: (1) changes made to the system or controls, (2) changes in
processing requirements, or (33 changes required because of the passage of time may alter
the validity of such conclusions.
This report is intended solely for use by DCPS management, its user organizations, and
the independent auditors of such user organizations.
                               By direction of the Deputy Inspector General for Auditing:


                                      JL&AAAJ                d M&
                                           aul J. Granetto, CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                  Service
Section II: Description of DCPS Operations and Controls
              Provided by DFAS and DISA




                           9
II. Description of DCPS Operations and Controls Provided by
    DFAS and DISA

A. Overview of DCPS
Purpose of DCPS

In 1991, the DoD selected DCPS to serve as its standard payroll system for use by all
DoD activities paying civilian employees, except Local Nationals and those funded by
Non-appropriated Funds and Civilian Mariners. Before becoming the DoD-wide civilian
pay system, DCPS was the Navy civilian pay system, which had been in operation since
1988. From a life cycle perspective, DCPS is in the maintenance phase, with changes
mainly being driven by legislative and functional enhancements. The DCPS program
mission is to process payroll for DoD civilian employees in accordance with existing
regulatory, statutory, and financial information requirements relating to civilian pay
entitlements and applicable policies and procedures. The DoD civilian pay program must
satisfy the complex and extensive functional, technical, and interface requirements
associated with the DoD civilian pay function. The functional areas include: employee
data maintenance; time and attendance; leave; pay processing; deductions; retirement
processing; debt collection; special actions; disbursing and collection; reports processing
and reconciliation; and record maintenance and retention. DCPS provides standard
interface support to various accounting, financial management, and personnel systems.

DCPS began paying the Executive Office of the President (EOP) in 1998. As part of the
President’s Management Agenda e-Payroll initiative, DFAS was selected as one of four
federal payroll providers to service the entire executive branch of the Federal
government. DFAS began processing payroll for the Department of Energy (DOE) in
2003 and the Department of Health and Human Services (HHS) in 2005. DCPS currently
processes pay for approximately 762,000 employees.

DCPS is used primarily by approximately 350 payroll processing personnel at three
DFAS payroll offices located in Pensacola, FL; Charleston, SC, and Denver, CO. DCPS
is also used by NSA1. Additional users are the Customer Service Representatives (CSRs)
at customer activities and sites. Payroll for DoD civilians is processed by all three DFAS
payroll offices. The EOP payroll is processed by the Pensacola payroll office and the
DOE and HHS payrolls are processed by the Charleston payroll office.

DCPS Support Functions

The DFAS Military and Civilian Pay Services (M&CPS) Business Line (under the
cognizance of the DFAS Director) provides high-level management control and
coordination within DoD and for external customers. The Civilian Pay Services Product
Line (within the M&CPS) has overall daily responsibility for application, operation,
interpretation and implementation of DCPS, as well as responsibility for coordinating
with external users and new customers. These responsibilities include requirements
management, functional analysis, information assurance, and user documentation
processes. The system is maintained and executed on the DISA mainframe platform at


1The NSA payroll office is not included in the scope of this “Description of DCPS Operations and Controls
Provided by DFAS and DISA”.


                                                   11
the Defense Enterprise Computing Center, Mechanicsburg, Pennsylvania (DECC
MECH)2. The Technology Services Engineering Organization in Pensacola (TSOPE)
provides DCPS software engineering and operations support. Within TSOPE, several
groups provide DCPS support. The Software Engineering Division provides technical
design, programming, unit testing, and system documentation. Integration testing and
evaluation processes are performed within the Software Test and Evaluation Division.
Project Support provides system software, telecommunication, computer resource tools,
and database support. DCPS Software Quality Assurance monitors the software
engineering process and provides recommendations for improvement. The Systems
Management Directorate provides configuration management, release management,
implementation status, and customer support.

DCPS Systems Architecture

DCPS has a two-tiered architecture comprised of the following:

        •   Mainframe hardware and software components - used as a repository for the
            collection and accumulation of data, and to provide centralized, biweekly
            processing of civilian pay and its attendant functions (e.g., electronic funds
            transfer, generation of leave, and earnings statements).

        •   Remote user/print spooler hardware and software - used to collect and/or pre-
            process data at customer sites, provide connectivity to DCPS mainframe
            components, and support printing of mainframe generated outputs (e.g.,
            reports, timesheets) at customer locations. These components are largely
            customer-owned and operated, and include local area networks (LANs),
            personal computers, and a diverse assortment of printers and software that
            operates and connects them. A limited number of mid-tier (minicomputer)
            systems have been maintained by DFAS at selected DFAS sites to handle
            specialized printing requirements (e.g., paychecks). Other offloaded print
            services, such as bulk printing for DCPS payroll offices and printing of Leave
            and Earnings Statements, are performed on PC/workstation hardware
            maintained by the Defense Automated Printing Service (DAPS) at sites
            located in various U.S. and overseas geographical regions.

The two tiers of the DCPS architecture are connected via DoD-maintained networks
comprised of Internet Protocol (IP)-based (e.g., Non-Classified Internet Protocol Router
Network (NIPRNET)) and Systems Network Architecture (SNA)-based (leased line)
services. These networks connect DCPS to a wide variety of external, non-DCPS sites
(mainframes, mid-tiers, and PCs) that supply or exchange data with DCPS on a regular
basis, mainly through electronic file transfers. Examples of external interface sites
include the Defense Civilian Personnel Data System, Federal Reserve Board, Thrift
Savings Plan, Department of Treasury, and non-DoD users such as DOE, HHS and EOP.




2According to DISA, Mechanicsburg is currently a DECC until September 2, 2005. Effective September 3,
2005, all DECCs are being converted to Systems Management Centers.



                                                 12
The main technical components of DCPS include the following attributes:

       •   DCPS is housed in a separate logical domain on an IBM Z900 mainframe
           computer located at DECC MECH;

       •   The IBM mainframe operating system software is Z/OS release 1.4;

       •   DCPS is written in COBOL II language;

       •   First point of entry security protection mechanisms are provided by Access
           Control Facility 2 (ACF2);

       •   DECC MECH provides four web servers that service all applications that
           support DCPS. These servers accept the users’ secure web requests by
           supplying a menu screen with options for each application to the DCPS
           LOGON SCREEN, where individuals enter their ACF2 login user IDs and
           passwords; and

       •   Third-party software packages are used for DCPS process scheduling and
           monitoring.

The payroll offices and associated CSRs have access to DCPS via dedicated leased lines,
various DoD networks, and through Secure Web Access. Secure Web Access enables
secure transaction processing across the NIPRNET. IBM’s Host On Demand was used to
establish the Secure Web Access infrastructure. DCPS users interact directly with the
DCPS application through “3270” emulation using Personal Computer/Advanced
Technology keyboard mapping terminals or terminal simulation programs for
communication with DCPS. This permits application-defined formatted screens to be
displayed with protected static text and unprotected fields for data entry. The payroll
offices are structured in accordance with DFAS standard staffing policy and conduct
business using standard operating and support procedures. They operate on a 24-hour
basis to provide payroll service to customers located in various time zones and are
responsible for the full range of pay processing functions and services. As circumstances
dictate, the offices serve as back-up operations sites for each other when contingency
procedures must be invoked.

DoD Instruction 8500.2, “Information Assurance Implementation,” February 6, 2003
(DoDI 8500.2), outlines specific control requirements that DoD systems should achieve
based on their designated Mission Assurance Category (MAC). According to the current
DCPS System Security Authorization Agreement (SSAAs) as of June 30, 2005, the MAC
level for the DCPS application is “MAC III” and its supporting enclave at DISA-
Mechanicsburg is “MAC II”.




                                           13
DCPS Data Flow

Figure 1 below depicts the DCPS data flow as of April 2005:
       Figure 1




Overview of System Interfaces

DCPS is a combination of on-line and batch programs that support the requirements of a
bi-weekly, and in the case of the President, monthly payroll, for over 762,000 civilian
employees in the Federal government based on data feeds from numerous personnel,
accounting, and time and attendance systems. Transactions to update employee data,
adjust leave balances and payments, and report time and attendance may be input daily to
spread the online workload and to obtain labor data. However, the focal point of the
system is the bi-weekly process. Non bi-weekly process functions occur monthly,
quarterly, annually, or as required, and are in support of or a result of, multiple bi-weekly
pay cycles. DCPS supports a standard personnel interface, decentralized time and
attendance reporting, and the CSR structure.

DCPS accepts input from three primary areas: CSRs, timekeepers, and personnel offices.
DCPS receives or creates approximately 140 interface files that, among other functions:

       •   update personnel information,
       •   upload time and attendance data,
       •   download information for checks to be printed,



                                             14
       •   report accounting information to Treasury,
       •   reconcile enrollment information with health care providers, and
       •   download general accounting information to DoD agencies.

Automatic electronic file transfer directly to and from the host mainframe computer is
preferred for input and output file interfaces. Output files are automatically transmitted
to sites and activities using common file transfer protocols, via communication lines of
files written to magnetic tape at the host (per data in File Transfer Tables). CSRs must
provide File Transfer Table data to TSOPE for table updates. For files not automatically
transferred, it is the activity’s responsibility to access the host computer to retrieve
(“pull”) their output file(s) from the host. It is the responsibility of the activity creating
an input interface file for DCPS to deliver it, by whatever means, to the payroll office or
the processing center supporting the payroll office. A mutually agreeable schedule
between the payroll activity and the submitting activity must be established to ensure
timely receipt of data to support DCPS payroll processing. TSOPE is responsible for
executing and monitoring the interface processing as well as resolving interfacing
processing errors or problems.

B. Control Environment
DCPS Management Oversight

The DFAS M&CPS Business Line (under the cognizance of the DFAS Director) provides
high-level management control and coordination within DoD and DCPS external
customers. The Civilian Pay Services Product Line (within the M&CPS) has overall
daily responsibility for the DCPS system. The DFAS Information and Technology
Directorate is responsible for reviewing, approving the overall DCPS security policy and
its certification and accreditation plan, and granting DCPS authority to operate. The
TSOPE, a unit of DFAS, provides DCPS software engineering, production support, and
customer service. The TSOPE reports to the Civilian Pay Services Product Line. DCPS
is maintained and executed on DISA mainframe platforms at DECC MECH. DECC
MECH is part of the Center for Computing Services within the Global Information Grid
Combat Support Directorate, which is a Strategic Business Unit within DISA. DISA and
DFAS are Defense Agencies that report to the Office of the Secretary of Defense. DISA
support services provided to DCPS are documented in a signed service level agreement
between DISA and DFAS. The service level agreement is reviewed and updated by both
agencies on an annual basis. Both DFAS and DISA have documented policies and
procedures for their respective functions.

Personnel Policies and Procedures

DFAS Payroll Offices and TSOPE

Payroll office employees and contractors are required to review applicable administrative
orders, policies, and procedures with the Human Resource Office and must complete
appropriate forms to gain access to DFAS systems. New employees must meet with the
Information Security (IS) Manager. The IS Manager is responsible for: (1) providing
basic systems security awareness training, (2) securing civilians’ and contractors’
signatures on an Automated Data Processing Security Awareness disclosure, (3)
identifying to the employee who their Terminal Area Security Officer (TASO) is and
what the TASO responsibilities are, and (4) notifying appropriate personnel to provide


                                              15
access or to immediately terminate employee and/or contractor access to DFAS
automated information system resources when an employee and/or contractor are
processing-in or processing-out. The payroll offices and TSOPE facilities do not require
any specific level of prior security clearance before a candidate can become an employee.

DECC MECH

The security manager is responsible for processing and vetting new employees and
contractors who are given access to DISA facilities in Mechanicsburg. All contractors
and employees are required, at a minimum, to have a secret clearance and a positive
National Agency Check for employees, the security manager coordinates with the
personnel office and for contractors, the security manager coordinates with the
contracting officer. The contracting officer is responsible for confirming that all
contractors are assigned to a valid contract, and have been approved to operate at DECC
MECH.

All new employees are required to sign DISA Form 312, ”Classified Information
Nondisclosure Agreement,” which serves as a nondisclosure agreement for sensitive and
classified information. When employees are terminated, DISA requires them to sign the
same Form 312 to confirm their understanding of the requirements put upon them. For
new employees and contractors to gain access to DISA systems, they are required to
complete DD Form 2875, “System Authorization Access Request.” The security
manager is responsible for vetting these forms and confirming that the person requesting
access has the proper clearance for the level of access requested. For contractors, the
security manager confirms the length of the contract and determines when system
accounts should expire. All new employees and contractors must complete security
awareness training.

C. Monitoring
Management and supervisory personnel at DFAS and DISA monitor the performance
quality and internal control environment as a normal part of their activities. DFAS and
DISA have implemented a number of management, financial, and operational reports that
help monitor the performance of payroll processing, as well as the DCPS system itself.
These reports are reviewed periodically and action is taken as necessary. All procedural
problems and exceptions to normal and scheduled processing are logged, reported, and
resolved in a timely manner, with remedial action taken as necessary.

In addition, several organizations within DoD perform monitoring activities associated
with DCPS-related internal controls. These functions include:

DISA Office of the Inspector General and Field Security Office

DISA has its own Office of Inspector General (OIG), which is an independent office
within DISA that conducts internal audits, inspections, and investigations. The DISA-
related components that support DCPS are part of the DISA OIG audit universe and are
subject to audits, inspections, and investigations conducted by this office.

In addition, DISA has a Field Security Operations (FSO) unit that performs periodic
System Readiness Reviews of DISA systems to determine whether those systems are in
compliance with the DISA documented Standard Technical Implementation Guides



                                           16
(STIGs). The DCPS system components that are maintained by DISA are subject to
these FSO reviews. The FSO is independent of the DECC MECH management structure
and does not maintain or configure DCPS systems.

Certification and Accreditation

DoD Instruction 5200.40, “Department of Defense Information Technology Security
Certification and Accreditation Process (DITSCAP),” December 30, 1997, establishes a
standard Department-wide process, set of activities, general tasks, and management
structure to certify and accredit information systems that will maintain the information
assurance and security posture of the defense information infrastructure throughout the
life cycle of each system. The certification process is a comprehensive evaluation of the
technical and non-technical security features of an information system and other
safeguards to establish the extent to which a particular design and implementation meets
specified security requirements and covers physical, personnel, administrative,
information, information systems, and communications security. The accreditation
process is a formal declaration by the designated approving authority that an information
system is approved to operate in a particular security mode using a prescribed set of
safeguards at an acceptable level of risk.

DCPS is subject to the requirements of DITSCAP and must meet all of the DITSCAP
certification and accreditation requirements throughout its life cycle. As part of the
DCPS DITSCAP process, separate SSAAs have been prepared for the DCPS application
itself and for the system enclave within DISA that supports the application. Each SSAA
is a living document that represents an agreement between the designated approving
authority, certifying authority, user representative, and program manager. Among other
items, the DCPS SSAA documents DCPS’ mission description and system identification,
environment description, system architecture description, system class, system security
requirements, organizations and resources, and DITSCAP plan. On a periodic basis, the
system security officer must verify and validate DCPS’ compliance with the information
in the SSAA. These verification and validation procedures include, among other steps,
vulnerability evaluations, security testing and evaluation, penetration testing, and risk
management reviews. The DCPS application SSAA, which was issued in May 2002 and
valid for three years, is currently being modified as part of their DITSCAP recertification
and reaccredidation process that is expected to be completed in July 2005. The DECC
MECH enclave SSAA, which was issued in October 2003 is valid for three years and is
the same SSAA that was in place for the DCPS audit report issued in October 2004.

DoD Office of Inspector General (DoD OIG)

The DoD OIG was established under the Inspector General Act of 1978 by Congress to
conduct and supervise audits and investigations related to the programs and operations of
the DoD. The DoD OIG reports directly to the Secretary of Defense and is independent
of DFAS and DISA. DCPS, as well as the payroll processes it supports, is part of the
DoD OIG audit universe and is subject to financial, operational, and information
technology audits, reviews, and special assessment projects.

D. Risk Assessment
The DITSCAP process, discussed in subsection C above, includes several activities that
document and assess risks associated with DCPS. The DCPS application and enclave
SSAAs, which are a product of the DITSCAP process, also document threats to DCPS


                                            17
and its supporting technical environment. The SSAAs also contain Residual Risk
Assessments that document vulnerabilities noted during DCPS tests and analyses. The
information contained in the SSAAs is updated on a periodic basis. Personnel from
DFAS TSOPE and DECC MECH participate in these risk assessment activities.

E. Information and Communication
DCPS is the information system used to process civilian payroll for DoD and its payroll
customers, such as EOP, DOE and HHS. The processing of payroll involves over 140
data files that interface with DCPS. These interfaces are linked to other DoD financial
systems as well as external systems. The majority of the interfaces are automated. All
automated interfaces must conform to documented interface specifications developed by
the TSOPE, who is responsible for executing and monitoring the automated interfaces.

The support relationship between DFAS and DECC MECH is documented through a
service level agreement that is reviewed and updated annually. The service level
agreement outlines various DFAS and DECC MECH points of contact and liaisons that
should be used when DCPS issues arise. DECC MECH also assigned a customer
relationship manager to work with DFAS TSOPE to resolve any DCPS processing
problems or concerns.

Within DFAS, the TSOPE and payroll offices have a weekly meeting between the
directors and managers of both organizations to discuss DCPS processing issues. There
is also a Configuration Control Board (CCB), comprised of TSOPE and payroll office
personnel, to review and approve functional and systemic changes to DCPS. The payroll
offices also have a help desk function to identify and track user issues and problems with
DCPS and communicate those issues and problems to the TSOPE for resolution.

F. Control Activities
The DCPS control objectives and related control activities are included in Section III of
this report, “Information Provided by the Service Auditor,” to eliminate the redundancy
that would result from listing them in this section and repeating them in Section III.
Although the control objectives and related controls are included in Section III, they are,
nevertheless, an integral part of the description of controls.

G. User Organization Control Considerations
The control activities at DFAS and DISA related to DCPS were designed with the
assumption that certain controls would be placed in operation at user organizations. This
section describes some of the controls that should be in operation at user organizations to
complement the controls at DFAS and DISA.

User organizations should have policies and procedures in place to ensure that:

       •   The Information Systems Security Officer (ISSO) located at the payroll
           offices is notified of all terminated employees that are DCPS users.




                                            18
•   The local Human Resource Office is notified of all terminated employees, so
    that such employees are removed from the Master Employee Record in a
    timely manner.

•   All time entered by timekeepers is approved and authorized by appropriate
    user organization management.

•   All Master Employee Records created represent valid employees.

•   All changes to the Master Employee Record are approved by appropriate user
    organization personnel prior to payroll processing.

•   Segregation of duties exists between those at the user organization who enter
    time and those who enter or change Master Employee Records.

•   If a pseudo Social Security Number (SSN) is created, the pseudo SSN has
    been authorized by appropriate user organization personnel and, if necessary,
    is accurately tied to a primary and valid SSN.

•   User organization managers review the “Control of Hours” and other payroll-
    related reports for appropriateness and accuracy.

•   All invalid time entry interface feeds are reviewed and processed by
    appropriate user organization personnel in a controlled manner.

•   All invalid personnel record interface feeds are resolved in the interface
    system by user organization personnel with appropriate approval by user
    organization management.




                                     19
Section III: Control Objectives, Control Activities, and Tests
                 of Operating Effectiveness




                              21
III. Control Objectives, Control Activities, and Tests of
     Operating Effectiveness

A. Scope Limitations
The control objectives documented in this section were specified by the DoD OIG. As
described in the prior section (Section II), DCPS interfaces with many systems. The
controls described and tested within this section of the report are limited to those
computer systems, operations, and processes directly related to DCPS itself. The controls
related to the source and destination systems associated with the DCPS interfaces are
specifically excluded from this review. We did not perform procedures to evaluate the
effectiveness of the input, processing, and output controls within these interface systems.
However, we did perform procedures to evaluate DCPS interface input and output
controls. In addition, we did not perform any procedures to evaluate the integrity and
accuracy of the data contained in DCPS.




                                            23
B. Control Objectives, Control Activities, and Tests of Operating Effectiveness

Application Control Objectives, Activities, Test Procedures and Results of Testing

No.       Control Objective               Control Activities                       Tests Performed                           Results of Testing
      1   Controls provide reasonable     Policies and procedures are              Read policies and procedures and          No relevant exceptions noted.
          assurance that only valid and   documented to describe that only valid   inquired with appropriate personnel to
          accurate changes are made to    and accurate changes are made to the     confirm that policies and procedures
          the payroll master files and    payroll master files and payroll         related to the processing of valid
          payroll withholding tables.     withholding tables.                      changes to the payroll master files and
                                                                                   payroll existed and were documented.
                                          Payroll master file and withholding      Inspected Online Queries (OLQs) and       DFAS Charleston
                                          data tables are periodically reviewed    Master Employee Add/Change/Delete         The OLQs and Master Employee
                                          by supervisory personnel for accuracy    reports and inquired with appropriate     Add/Change/Delete reports were
                                          and ongoing pertinence.                  personnel to confirm that master files    not signed off on to indicate they
                                                                                   and withholding tables were               have been reviewed. However, as a
                                                                                   periodically reviewed by supervisory      mitigating circumstance, we
                                                                                   personnel for accuracy and ongoing        observed that the Payroll Office
                                                                                   pertinence.                               staff reviewed the summary reports;
                                                                                                                             and the reports were archived
                                                                                                                             indicating that they had been run.
                                          Programmed validation and edit           Observed programmed validation and        No relevant exceptions noted.
                                          checks identify erroneous data.          edit checks and inquired with
                                                                                   appropriate personnel and to confirm
                                                                                   they existed.
                                          Changes to the payroll withholding       Observed the process of tax changes       No relevant exceptions noted.
                                          tables and master files are compared     to the payroll withholding tables and
                                          to authorized source documents by        master files being compared to
                                          supervisory personnel to ensure that     authorized source documents by
                                          they were input accurately.              supervisory personnel and inquired
                                                                                   with appropriate personnel and to
                                                                                   confirm that they were tested and
                                                                                   approved.

                                                                                   Observed the imaging process to
                                                                                   confirm that inputs were compared to
                                                                                   authorized imaging documents and
                                                                                   inquired with appropriate personnel to



                                                                         24
No.       Control Objective               Control Activities                       Tests Performed                           Results of Testing
                                                                                   confirm that they were input
                                                                                   accurately.
      2   Controls provide reasonable     Policies and procedures are              Read policies and procedures and          No relevant exceptions noted.
          assurance that changes to the   documented to describe that changes      inquired with appropriate personnel to
          payroll master files and        to the payroll master files and          confirm that policies and procedures
          withholding tables are          withholding tables are authorized,       related to the processing of changes to
          authorized, input, and          input, and processed timely.             payroll master files and withholding
          processed timely.                                                        tables existed and were documented.
                                          Changes to the payroll master file and   Inquired with appropriate personnel       DFAS Charleston
                                          withholding table data are logged in     and inspected the Master Employee         The Master Employee
                                          numerous reports including the Master    Add/Change/Delete report to confirm       Add/Change/Delete reports, as well
                                          Employee Add/Change/Delete Report        that changes to the payroll master file   as other summary reports, were not
                                          and reviewed by supervisory              and table data were logged and            signed off to indicate they were
                                          personnel to ensure that all requested   reviewed by supervisory personnel.        reviewed. However, as a mitigating
                                          changes are processed timely.                                                      circumstance, we observed that the
                                                                                                                             Payroll Office staff reviewed the
                                                                                                                             summary reports and the reports
                                                                                                                             were archived indicating that they
                                                                                                                             had been run.
                                          Requests to change the payroll master    Inspected a random sample of              DFAS-Denver
                                          file data and withholding table are      45 Remedy Tickets and inquired with       One of 45 Remedy Tickets tested
                                          submitted on pre-numbered Remedy         appropriate personnel to confirm the      was not completed within the
                                          Tickets; the numerical sequence of the   requests:                                 required timeframe.
                                          Remedy Tickets is accounted for to
                                          ensure that the requested changes are    • Were pre-numbered;                      DFAS-Pensacola
                                          processed timely. Access to source                                                 Four of 45 Remedy Tickets tested
                                          documents is controlled; Key source      • That the sequence was accounted         were not completed within the
                                          documents require signatures from          for so that the forms were              required timeframe.
                                          supervisory personnel.                     accounted for timely;
                                                                                                                             DFAS-Charleston
                                                                                   • That access to the source               Two of 45 Remedy Tickets tested
                                                                                     documents was restricted, and           were not completed within the
                                                                                                                             required time frame.
                                                                                    • That key source documents
                                                                                      required signatures from
                                                                                      supervisory personnel.
                                          Payroll master file data and             Inspected a haphazard sample of           DFAS-Denver
                                          withholding table data are edited and    45 Personnel Interface Invalid Reports    Due to technical difficulties with
                                          validated and errors identified on the   of erroneous transactions and inquired    the document management system


                                                                          25
No.   Control Objective   Control Activities                       Tests Performed                         Results of Testing
                          Personnel Interface Invalid Report are   with appropriate personnel to confirm   used to store the Personnel Interface
                          corrected promptly.                      items were investigated and resolved    Invalid Reports, the Personnel
                                                                   timely.                                 Interface Invalid Reports could not
                                                                                                           be provided prior to March 27,
                                                                                                           2005, which represented 18 of the
                                                                                                           45 reports selected for testing.
                                                                                                           Additionally, one of the remaining
                                                                                                           27 reports from March 28, 2005
                                                                                                           through June 30, 2005 could not be
                                                                                                           located, which left the sample of 26
                                                                                                           to be reviewed. Annotations on 23
                                                                                                           of the 26 Personnel Interface
                                                                                                           Invalid Reports from March 28,
                                                                                                           2005 through June 30, 2005 did not
                                                                                                           include the corrective actions taken;
                                                                                                           18 out of the 26 Personnel Interface
                                                                                                           Invalid Reports provided were not
                                                                                                           dated as completed, and 12 of the
                                                                                                           26 Personnel Interface Invalid
                                                                                                           Reports were not initialed as
                                                                                                           completed.

                                                                                                           DFAS-Charleston
                                                                                                           Due to the inability of the system to
                                                                                                           allow annotation of the Personnel
                                                                                                           Interface Invalid Reports and
                                                                                                           payroll office personnel performed
                                                                                                           an undocumented random review of
                                                                                                           the reports instead of a documented
                                                                                                           review all reports, the audit team
                                                                                                           could not determine that the
                                                                                                           Personnel Interface Invalid Reports
                                                                                                           are properly corrected, annotated,
                                                                                                           and reviewed by supervisors.
                                                                                                           Therefore, testing of the reports at
                                                                                                           DFAS Charleston payroll office
                                                                                                           was not performed.




                                                         26
No.       Control Objective                Control Activities                       Tests Performed                          Results of Testing
                                                                                                                             DFAS-Pensacola
                                                                                                                             Ten of the 44 Personnel Interface
                                                                                                                             Invalid Reports were not available
                                                                                                                             for review. The remaining
                                                                                                                             34 reports that were reviewed did
                                                                                                                             not always have the final resolution
                                                                                                                             of errors annotated in the report.
                                                                                                                             The Personnel Interface Invalid
                                                                                                                             Reports were not reviewed by a
                                                                                                                             supervisor to ensure all exceptions
                                                                                                                             noted on the report had been
                                                                                                                             corrected by the payroll technician.
                                           The ability to view, modify, or          Inspected a random sample of             Payroll Office Users
                                           transfer information contained in the    45 access forms to confirm the user on   Seven of 45 payroll office users’
                                           payroll master files is restricted to    the form was properly authorized and     SAAR forms selected for testing
                                           authorized personnel.                    that the access granted on the form      contained an authorization for
                                                                                    matched the access granted within        access on the SAAR form, which
                                                                                    DCPS.                                    did not match access granted within
                                                                                                                             DCPS. In addition, one of 45
                                                                                                                             payroll office user’s SAAR forms
                                                                                                                             selected for testing did not contain a
                                                                                                                             supervisor’s signature.

                                                                                                                             Non-Payroll Office Users
                                                                                                                             Four of 45 non-payroll office users’
                                                                                                                             SAAR forms selected for testing
                                                                                                                             contained an authorization for
                                                                                                                             access on the SAAR form, which
                                                                                                                             did not match access granted within
                                                                                                                             DCPS. In addition, four of the 45
                                                                                                                             non-payroll office users’ SAAR
                                                                                                                             forms could not be located.
      3   Controls provide reasonable      Policies and procedures are              Read policies and procedures and         No relevant exceptions noted.
          assurance that payroll           documented to describe that payroll      inquired with appropriate personnel to
          processing is accurate and       processing is accurate and recorded in   confirm that policies and procedures
          recorded in the proper period.   the proper period.                       related to the accurate processing and
                                                                                    recording of payroll existed and were
                                                                                    documented.




                                                                           27
No.   Control Objective   Control Activities                        Tests Performed                           Results of Testing
                          Compliance with the payroll               Observed payroll disbursement             No relevant exceptions noted.
                          disbursement processing schedule is       processes and inquired with
                          monitored by management.                  appropriate personnel and inspected
                                                                    pay processing schedules to confirm
                                                                    that management was monitoring the
                                                                    payroll disbursement processing
                                                                    schedule.
                          The detailed “592” payroll                Inspected a sample of 20 (to include      No relevant exceptions noted.
                          reconciliation shows all pertinent data   all pay periods during the 9 month
                          describing the payroll (including total   audit period) “592” reconciliations for
                          disbursements, Retirement, Thrift         each database and inquired with
                          Savings Plan (TSP), Bonds, and other      appropriate personnel to confirm:
                          withholdings) and the related balances
                          are reconciled, in the appropriate        • The detailed payroll reconciliation
                          accounting period, to corresponding         showed pertinent data describing
                          general ledger accounts within DCPS.        the payroll (including total
                          All reconciling items are investigated      disbursements, Retirement, TSP,
                          and cleared on a timely basis by            Bonds, and other withholdings)
                          supervisory personnel, prior to             and the related balances were
                          disbursement.                               reconciled, in the appropriate
                                                                      accounting period, to
                                                                      corresponding general ledger
                                                                      accounts within DCPS;

                                                                    • Each “592” reconciliation was
                                                                      approved by management prior to
                                                                      disbursement and;

                                                                    • Reconciling items were
                                                                      investigated and cleared on a
                                                                      timely basis by supervisory
                                                                      personnel, prior to disbursement.

                          Summary payroll reports including         Inspected summary reports and OLQs,       DFAS Charleston
                          OLQs of total disbursements,              observed payroll office staff summary     The summary reports, including the
                          Retirement, TSP, Bonds, and other         report and OLQ review procedures,         OLQs, were not signed off on to
                          withholdings are reviewed and             and inquired with appropriate             indicate they were reviewed.
                          approved by management prior to           personnel to confirm they were            However, as a mitigating
                          disbursement.                             reviewed and approved by                  circumstance, we observed that the


                                                          28
No.       Control Objective             Control Activities                        Tests Performed                           Results of Testing
                                                                                  management prior to disbursement.         Payroll Office staff reviewed the
                                                                                                                            summary reports; and the reports
                                                                                                                            were archived indicating that they
                                                                                                                            had been run.
      4   Controls provide reasonable   Policies and procedures are               Read policies and procedures and          No relevant exceptions noted.
          assurance that disbursed      documented to describe that               inquired with appropriate personnel to
          payroll (including            management ensures disbursed payroll      confirm that policies and procedures
          compensation and              (including compensation and               related to the disbursement of payroll
          withholding) is accurately    withholding) is accurately calculated     existed and were documented.
          calculated and recorded.      and recorded.
                                        The detailed “592” payroll                Inspected a sample of 20 (to include      No relevant exceptions noted.
                                        reconciliation shows all pertinent data   all pay periods during the 9 month
                                        describing the payroll (including total   audit period) “592” reconciliations for
                                        disbursements, Retirement, TSP,           each database and inquired with
                                        Bonds, and other withholdings) and        appropriate personnel to confirm:
                                        the related balances are reconciled, in
                                        the appropriate accounting period, to     • The detailed payroll reconciliation
                                        corresponding general ledger accounts       showed pertinent data describing
                                        within DCPS. All reconciling items          the payroll (including total
                                        are investigated and cleared on a           disbursements, Retirement, TSP,
                                        timely basis by supervisory personnel,      Bonds, and other withholdings)
                                        prior to disbursement.                      and the related balances were
                                                                                    reconciled, in the appropriate
                                                                                    accounting period, to
                                                                                    corresponding general ledger
                                                                                    accounts within DCPS;

                                                                                  • Each “592” reconciliation was
                                                                                    approved by management prior to
                                                                                    disbursement and;

                                                                                   • Reconciling items were
                                                                                     investigated and cleared on a
                                                                                     timely basis by supervisory
                                                                                     personnel, prior to disbursement.
                                        Summary payroll reports including         Inspected summary reports and OLQs,       DFAS Charleston
                                        OLQs of total disbursements,              observed payroll office staff summary     The summary reports, including the
                                        Retirement, TSP, Bonds, and other         report and OLQ review procedures,         OLQs, were not signed off to
                                        withholdings) are reviewed and            and inquired with appropriate             indicate they were reviewed.


                                                                        29
No.       Control Objective                  Control Activities                         Tests Performed                          Results of Testing
                                             approved by management prior to            personnel to confirm they were           However, as a mitigating
                                             disbursement.                              reviewed and approved by                 circumstance, we observed that the
                                                                                        management prior to disbursement.        Payroll Office staff reviewed the
                                                                                                                                 summary reports; and the reports
                                                                                                                                 were archived indicating that they
                                                                                                                                 had been run.
                                             DCPS performs limit and                    Inspected a report showing earnings      No relevant exceptions noted.
                                             reasonableness checks on employee          limit and reasonableness errors and
                                             earnings.                                  inquired with appropriate personnel to
                                                                                        confirm whether reasonableness
                                                                                        checks were performed on employee
                                                                                        earnings.
                                             Programmed validation and edit             Observed the entering of new             No relevant exceptions noted.
                                             checks identify erroneous data.            employee information into DCPS to
                                                                                        confirm that programmed validation
                                                                                        and edit checks were executed.
      5   Controls provide reasonable        Policies and procedures are                Read policies and procedures and         No relevant exceptions noted.
          assurance that only valid,         documented to describe that                inquired with appropriate personnel to
          authorized employees are paid      management ensures only valid,             confirm that policies and procedures
          and that payroll is disbursed to   authorized employees are paid and          related to disbursement of payroll to
          appropriate employees.             that payroll is disbursed to appropriate   valid and authorized employees
                                             employees.                                 existed and were documented.

                                             OLQs and summary reports such as           Inspected OLQs and Master                DFAS Charleston
                                             the Master Employee                        Employee Add/Change/Delete               The OLQs and Master Employee
                                             Add/Change/Delete Report are               reports, observed payroll office staff   Add/Change/Delete reports were
                                             periodically reviewed by supervisory       summary report and OLQ review            not signed off to indicate they were
                                             personnel to determine if the master       procedures, and inquired with            reviewed. However, as a mitigating
                                             files remain accurate and pertinent.       appropriate personnel to confirm that    circumstance, we observed that the
                                                                                        master files and withholding tables      Payroll Office staff reviewed the
                                                                                        were periodically reviewed by            summary reports; and the reports
                                                                                        supervisory personnel.                   were archived indicating that they
                                                                                                                                 had been run.
                                             Departmental managers periodically         Inspected the Personnel/Payroll          No relevant exceptions noted.
                                             review listings, such as the               Reconciliation and Control of Hours
                                             Personnel/Payroll Reconciliation and       Reports and inquired with appropriate
                                             Control of Hours Report, of current        personnel to confirm they were sent to
                                             employees within their departments         management for review of employee
                                             and notify the personnel department of     listings and notification to personnel



                                                                              30
No.   Control Objective   Control Activities                        Tests Performed                           Results of Testing
                          necessary changes. All payroll            department of changes.
                          queries are followed up by persons
                          independent of the payroll preparation
                          and disbursement process.
                          The detailed “592” payroll                Inspected a sample of 20 (to include      No relevant exceptions noted.
                          reconciliation shows all pertinent data   all pay periods during the 9 month
                          describing the payroll (including total   audit period) “592” reconciliations for
                          disbursements, Retirement, TSP,           each database and inquired with
                          Bonds, and other withholdings) and        appropriate personnel and to confirm:
                          the related balances are reconciled, in
                          the appropriate accounting period, to     • The detailed payroll reconciliation
                          corresponding general ledger accounts       showed pertinent data describing
                          within DCPS. All reconciling items          the payroll (including total
                          are investigated and cleared on a           disbursements, Retirement, TSP,
                          timely basis by supervisory personnel,      Bonds, and other withholdings)
                          prior to disbursement.                      and the related balances were
                                                                      reconciled, in the appropriate
                                                                      accounting period, to
                                                                      corresponding general ledger
                                                                      accounts within DCPS;

                                                                    • Each “592” reconciliation was
                                                                      approved by management prior to
                                                                      disbursement and;

                                                                     • Reconciling items were
                                                                       investigated and cleared on a
                                                                       timely basis by supervisory
                                                                       personnel, prior to disbursement.
                          Summary payroll reports including         Inspected summary reports and OLQs        DFAS Charleston
                          OLQs of total disbursements,              and inquired with appropriate             The OLQs and Master Employee
                          Retirement, TSP, Bonds, and other         personnel to confirm they were            Add/Change/Delete reports were
                          withholdings) are reviewed and            reviewed and approved by                  not signed off to indicate they were
                          approved by management prior to           management prior to disbursement.         reviewed. However, as a mitigating
                          disbursement.                                                                       circumstance, we observed that the
                                                                                                              Payroll Office staff reviewed the
                                                                                                              summary reports; and the reports
                                                                                                              were archived indicating that they
                                                                                                              had been run.


                                                          31
No.       Control Objective                Control Activities                      Tests Performed                           Results of Testing
                                           Only authorized personnel have the      Observed the disbursement of payroll,     No relevant exceptions noted.
                                           ability to disburse payroll.            inspected a random sample of 45
                                                                                   DCPS users, and inquired with the
                                                                                   appropriate personnel to confirm that
                                                                                   only authorized personnel had the
                                                                                   ability to disburse payroll.
      6   Controls provide reasonable      Policies and procedures are             Read policies and procedures and          No relevant exceptions noted.
          assurance of the integrity and   documented to describe that             inquired with appropriate personnel to
          reliability of DCPS data for     management ensures controls provide     confirm that policies and procedures
          financial reporting purposes.    reasonable assurance of the integrity   related to the controls over the
                                           and reliability of DCPS data for        integrity and reliability of DCPS data
                                           financial reporting purposes.           existed and were documented.
                                           Payroll transactions at the end of a    Inspected a sample of 20 (to include      No relevant exceptions noted.
                                           payroll cycle are reconciled by         all pay periods during the 9 month
                                           supervisory personnel to ensure         audit period) “592” payroll
                                           complete and consistent recording in    reconciliations at the end of a payroll
                                           the appropriate accounting period.      cycle and inquired with appropriate
                                                                                   personnel to confirm they were
                                                                                   reconciled.
                                           Error reports, such as the Personnel    Inspected error warnings and a            DFAS-Denver
                                           Interface Invalid Report, and error     haphazard sample of 45 Personnel          Due to technical difficulties with
                                           warnings show rejected transactions     Interface Invalid Reports and inquired    the document management system
                                           with error messages that have clearly   with appropriate personnel to confirm     used to store the Personnel Interface
                                           understandable corrective actions for   they showed rejected transactions         Invalid Reports, the Personnel
                                           each type of error.                     with error messages that had clearly      Interface Invalid Reports could not
                                                                                   understandable corrective actions for     be provided prior to March 27,
                                                                                   each type of error.                       2005, which represented 18 of the
                                                                                                                             45 reports selected for testing.
                                                                                                                             Additionally, one of the remaining
                                                                                                                             27 reports from March 28, 2005
                                                                                                                             through June 30, 2005 could not be
                                                                                                                             located, which left the sample of 26
                                                                                                                             to be reviewed. Annotations on 23
                                                                                                                             of the 26 Personnel Interface
                                                                                                                             Invalid Reports from March 28,
                                                                                                                             2005 through June 30, 2005 did not
                                                                                                                             include the corrective actions taken;
                                                                                                                             18 out of the 26 Personnel Interface
                                                                                                                             Invalid Reports provided were not



                                                                          32
No.   Control Objective   Control Activities                        Tests Performed                          Results of Testing
                                                                                                             dated as completed, and 12 of the
                                                                                                             26 Personnel Interface Invalid
                                                                                                             Reports were not initialed as
                                                                                                             completed.

                                                                                                             DFAS-Charleston
                                                                                                             Due to the inability of the system to
                                                                                                             allow annotation of the Personnel
                                                                                                             Interface Invalid Reports and
                                                                                                             payroll office personnel performed
                                                                                                             an undocumented random review of
                                                                                                             the reports instead of a documented
                                                                                                             review all reports, the audit team
                                                                                                             could not determine that the
                                                                                                             Personnel Interface Invalid Reports
                                                                                                             are properly corrected, annotated,
                                                                                                             and reviewed by supervisors.
                                                                                                             Therefore, testing of the reports at
                                                                                                             DFAS Charleston payroll office
                                                                                                             was not performed.

                                                                                                             DFAS-Pensacola
                                                                                                             Ten of the 44 Personnel Interface
                                                                                                             Invalid Reports were not available
                                                                                                             for review. The remaining 34
                                                                                                             reports that were reviewed did not
                                                                                                             always have the final resolution of
                                                                                                             errors annotated in the report. The
                                                                                                             Personnel Interface Invalid Reports
                                                                                                             were not reviewed by a supervisor
                                                                                                             to ensure all exceptions noted on
                                                                                                             the report had been corrected by the
                                                                                                             payroll technician.
                          Rejected data are automatically           Inspected the Personnel Interface        No relevant exceptions noted.
                          written to the Personnel Interface        Invalid Report of rejected data and
                          Invalid Report and held until corrected   inquired with the appropriate
                          by payroll technicians, and each          personnel to confirm that the rejected
                          erroneous transaction is annotated        data were automatically written on an
                          with codes indicating the type of data    automated error suspense file and held



                                                          33
No.       Control Objective                 Control Activities                        Tests Performed                           Results of Testing
                                            error, date and time the transaction      until corrected by payroll technicians.
                                            was processed and the error identified,   In addition, verified whether each
                                            and the identity of the user who          erroneous transaction was annotated
                                            originated the transaction.               with codes indicating the type of data
                                                                                      error, date and time the transaction
                                                                                      was processed, the error identified,
                                                                                      and the identify of the user who
                                                                                      originated the transaction.
      7   Controls provide reasonable       Policies and procedures are               Read policies and procedures and          No relevant exceptions noted.
          assurance that fiscal year-end,   documented to describe that               inquired with appropriate personnel to
          leave-year-end and calendar       management ensures fiscal year-end,       confirm that policies and procedures
          year-end processing occurs in     leave-year-end and calendar year-end      related to fiscal year-end, leave-year-
          accordance with established       processing occurs in accordance with      end, and calendar year-end processing
          Government-wide and agency        established Government-wide and           existed and were documented.
          guidelines.                       agency guidelines.
                                            Payroll withholding table data is         Inspected payroll withholding table       No relevant exceptions noted.
                                            periodically reviewed by supervisory      data updates to confirm they were
                                            personnel for compliance with             periodically updated by supervisory
                                            statutory requirements.                   personnel for compliance with
                                                                                      statutory requirements.
                                            The detailed “592” payroll                Inquired with appropriate personnel       No relevant exceptions noted.
                                            reconciliation shows all pertinent data   and inspected a sample of 20 (to
                                            describing the payroll (including total   include all pay periods during the
                                            disbursements, Retirement, TSP,           9 month audit period) “592”
                                            Bonds, and other withholdings) and        reconciliations for each database to
                                            the related balances are reconciled, in   confirm:
                                            the appropriate accounting period, to
                                            corresponding general ledger accounts     • The detailed payroll reconciliation
                                            within DCPS. All reconciling items          showed pertinent data describing
                                            are investigated and cleared on a           the payroll (including total
                                            timely basis by supervisory personnel,      disbursements, Retirement, TSP,
                                            prior to disbursement.                      Bonds, and other withholdings)
                                                                                        and the related balances were
                                                                                        reconciled, in the appropriate
                                                                                        accounting period, to
                                                                                        corresponding general ledger
                                                                                        accounts within DCPS;

                                                                                      • Each “592” reconciliation was


                                                                            34
No.   Control Objective   Control Activities                      Tests Performed                         Results of Testing
                                                                    approved by management prior to
                                                                    disbursement and;

                                                                   • Reconciling items were
                                                                     investigated and cleared on a
                                                                     timely basis by supervisory
                                                                     personnel, prior to disbursement.
                          The data processing control group has   Inspected the schedules used by the     No relevant exceptions noted.
                          a schedule by application that shows    data processing group and inquired
                          when outputs should be completed,       with appropriate personnel to confirm
                          when they need to be distributed, who   they:
                          the recipients are, and the copies
                          needed; reviews output products for     • Had a schedule by application that
                          general acceptability; and reconciles     showed when outputs needed to be
                          control information to determine          completed, when they needed to be
                          completeness of processing.               distributed, who the recipients
                                                                    were, and the copies needed;

                                                                  • Reviewed output products for
                                                                    general acceptability, and

                                                                   • Reconciled control information to
                                                                     determine completeness of
                                                                     processing.
                          Users review the Personnel Interface    Inspected a haphazard sample of 45      DFAS-Denver
                          Invalid Reports for data accuracy,      Personnel Interface Invalid Reports     Due to technical difficulties with
                          validity, and completeness.             and inquired with appropriate           the document management system
                                                                  personnel to confirm the reports were   used to store the Personnel Interface
                                                                  reviewed for data accuracy, validity,   Invalid Reports, the Personnel
                                                                  and completeness.                       Interface Invalid Reports could not
                                                                                                          be provided prior to March 27,
                                                                                                          2005, which represented 18 of the
                                                                                                          45 reports selected for testing.
                                                                                                          Additionally, one of the remaining
                                                                                                          27 reports from March 28, 2005
                                                                                                          through June 30, 2005 could not be
                                                                                                          located, which left the sample of 26
                                                                                                          to be reviewed. Annotations on 23
                                                                                                          of the 26 Personnel Interface


                                                         35
No.   Control Objective   Control Activities        Tests Performed   Results of Testing
                                                                      Invalid Reports from March 28,
                                                                      2005 through June 30, 2005 did not
                                                                      include the corrective actions taken;
                                                                      18 out of the 26 Personnel Interface
                                                                      Invalid Reports provided were not
                                                                      dated as completed, and 12 of the
                                                                      26 Personnel Interface Invalid
                                                                      Reports were not initialed as
                                                                      completed.

                                                                      DFAS-Charleston
                                                                      Due to the inability of the system to
                                                                      allow annotation of the Personnel
                                                                      Interface Invalid Reports and
                                                                      payroll office personnel performed
                                                                      an undocumented random review of
                                                                      the reports instead of a documented
                                                                      review all reports, the audit team
                                                                      could not determine that the
                                                                      Personnel Interface Invalid Reports
                                                                      are properly corrected, annotated,
                                                                      and reviewed by supervisors.
                                                                      Therefore, testing of the reports at
                                                                      DFAS Charleston payroll office
                                                                      was not performed.

                                                                      DFAS-Pensacola
                                                                      Ten of the 44 Personnel Interface
                                                                      Invalid Reports were not available
                                                                      for review. The remaining
                                                                      34 reports that were reviewed did
                                                                      not always have the final resolution
                                                                      of errors annotated in the report.
                                                                      The Personnel Interface Invalid
                                                                      Reports were not reviewed by a
                                                                      supervisor to ensure all exceptions
                                                                      noted on the report had been
                                                                      corrected by the payroll technician.




                                               36
No.       Control Objective              Control Activities                        Tests Performed                           Results of Testing
      8   Controls provide reasonable    Policies and procedures are               Read policies and procedures and          No relevant exceptions noted.
          assurance that current- or     documented to describe that               inquired with appropriate personnel to
          prior-period adjustments to    management ensures current- or prior-     confirm that policies and procedures
          employee's pay, including      period adjustments to employee's pay,     related to the processing of current or
          employee debt, tax deduction   including employee debt, tax              prior-period adjustments to
          or deductions not taken, are   deduction or deductions not taken, are    employee's pay, including employee
          reported, reconciled and       reported, reconciled and approved.        debt, tax deduction or deductions not
          approved.                                                                taken, existed and were documented.
                                         The detailed “592” payroll                Inspected a sample of 20 (to include      No relevant exceptions noted.
                                         reconciliation shows all pertinent data   all pay periods during the 9 month
                                         describing the payroll (including total   audit period) “592” reconciliations for
                                         disbursements, Retirement, TSP,           each database and inquired with
                                         Bonds, and other withholdings) and        appropriate personnel to confirm:
                                         the related balances are reconciled, in
                                         the appropriate accounting period, to     • The detailed payroll reconciliation
                                         corresponding general ledger accounts       showed pertinent data describing
                                         within DCPS. All reconciling items          the payroll (including total
                                         are investigated and cleared on a           disbursements, Retirement, TSP,
                                         timely basis by supervisory personnel,      Bonds, and other withholdings)
                                         prior to disbursement.                      and the related balances were
                                                                                     reconciled, in the appropriate
                                                                                     accounting period, to
                                                                                     corresponding general ledger
                                                                                     accounts within DCPS;

                                                                                   • Each “592” reconciliation was
                                                                                     approved by management prior to
                                                                                     disbursement and;

                                                                                    • Reconciling items were
                                                                                      investigated and cleared on a
                                                                                      timely basis by supervisory
                                                                                      personnel, prior to disbursement.
                                         OLQs and summary reports such as          Inspected OLQs and Master                 DFAS Charleston
                                         the Master Employee                       Employee Add/Change/Delete                The OLQs and Master Employee
                                         Add/Change/Delete Report are              reports, observed payroll office staff    Add/Change/Delete reports were
                                         periodically reviewed by supervisory      summary report and OLQ review             not signed off to indicate they were
                                         personnel to determine if the master      procedures, and inquired with             reviewed. However, as a mitigating
                                         files remain accurate and pertinent.      appropriate personnel to confirm that     circumstance, we observed that the


                                                                         37
No.   Control Objective   Control Activities                       Tests Performed                           Results of Testing
                                                                   master files were periodically            Payroll Office staff reviewed the
                                                                   reviewed by supervisory personnel.        summary reports; and the reports
                                                                                                             were archived indicating that they
                                                                                                             had been run.
                          The ability to view, modify, or          Inquired with appropriate personnel       Payroll Office Users
                          transfer information contained in the    and inspected a haphazard sample of       Seven of 45 payroll office users’
                          payroll master files is restricted to    45 access request forms to confirm the    SAAR forms selected for testing
                          authorized personnel.                    master file is restricted to authorized   contained an authorization for
                                                                   personnel.                                access on the SAAR form, which
                                                                                                             did not match access granted within
                                                                                                             DCPS. In addition, one of 45
                                                                                                             payroll office user’s SAAR forms
                                                                                                             selected for testing did not contain a
                                                                                                             supervisor’s signature.

                                                                                                             Non-Payroll Office Users
                                                                                                             Four of 45 non-payroll office users’
                                                                                                             SAAR forms selected for testing
                                                                                                             contained an authorization for
                                                                                                             access on the SAAR form, which
                                                                                                             did not match access granted within
                                                                                                             DCPS. In addition, four of the 45
                                                                                                             non-payroll office users’ SAAR
                                                                                                             forms could not be located.
                          Requests to change the payroll master    Inspected a random sample of 45           DFAS-Denver
                          file data and withholding table are      Remedy Tickets and inquired with          One out of 45 Remedy Tickets
                          submitted on prenumbered Remedy          appropriate personnel to confirm the      selected was not completed within
                          Tickets; the numerical sequence of the   requests:                                 the required time frame.
                          Remedy Tickets is accounted for to
                          ensure that the requested changes are    • Were prenumbered;                       DFAS-Pensacola
                          processed timely. Access to source                                                 Four out of 45 Remedy Tickets
                          documents is controlled and key          • That the sequence was accounted         were not completed within the
                          source documents require signatures        for so that the Remedy Tickets          required time frame.
                          from management.                           were accounted for timely;
                                                                                                             DFAS-Charleston
                                                                   • That access to the source               Two out of 45 Remedy Tickets
                                                                     documents was restricted, and           were not completed within the
                                                                                                             required time frame.
                                                                   That key source documents had


                                                          38
No.       Control Objective                Control Activities                         Tests Performed                          Results of Testing
                                                                                      required signatures from management.
      9   All application users are        Policies and procedures are                Read policies and procedures and         No relevant exceptions noted.
          appropriately identified and     documented to describe that                inquired with appropriate personnel to
          authenticated. Access to the     application users are appropriately        confirm that policies and procedures
          application and output is        identified and authenticated. Access to    related to the identification and
          restricted to authorized users   the application and output is restricted   authentication of DCPS users existed
          for authorized purposes.         to authorized users for authorized         and were documented.
                                           purposes.
                                           On-line access logs are maintained by      Inspected access logs and emails for     No relevant exceptions noted.
                                           the System Management Office               unauthorized access attempts and
                                           (SMO), and the logs are reviewed           inquired with appropriate personnel to
                                           regularly for unauthorized access          confirm that logs were maintained by
                                           attempts.                                  the SMO, and the logs were reviewed
                                                                                      regularly for unauthorized access
                                                                                      attempts.
                                           Each operator is required to have a        Inspected a randomly selected sample     Payroll Office Users:
                                           completed a systems access                 of 45 user authorization forms and       Seven of 45 payroll office users’
                                           authorized authorization form before       inquired with appropriate personnel to   SAAR forms selected for testing
                                           being granted access to the system.        confirm the user on the form was         contained an authorization for
                                                                                      properly authorized and that the         access on the SAAR form, which
                                           The ability to view, modify, or            access granted on the form matched       did not match access granted within
                                           transfer information contained in the      the access granted within DCPS.          DCPS; and one of 45 payroll office
                                           payroll master files is restricted to                                               user’s SAAR forms selected for
                                           authorized personnel.                                                               testing did not contain a
                                                                                                                               supervisor’s signature.

                                                                                                                               Non-Payroll Office Users:
                                                                                                                               Four of 45 non-payroll office users’
                                                                                                                               SAAR forms selected for testing
                                                                                                                               contained an authorization for
                                                                                                                               access on the SAAR form, which
                                                                                                                               did not match access granted within
                                                                                                                               DCPS. In addition, four of the 45
                                                                                                                               non-payroll office users’ SAAR
                                                                                                                               forms could not be located.
                                           Departmental managers periodically         Inspected the Personnel/Payroll          No relevant exceptions noted.
                                           review listings, such as the               Reconciliation and Control of Hours
                                           Personnel/Payroll Reconciliation and       Reports and inquired with appropriate
                                           Control of Hours Report, of current        personnel to confirm the reports were



                                                                            39
No.        Control Objective                Control Activities                        Tests Performed                          Results of Testing
                                            employees within their departments        generated and being reviewed by
                                            and notify the personnel department of    management.
                                            necessary changes.
      10   Controls provide reasonable      Policies and procedures are               Read policies and procedures and         No relevant exceptions noted.
           assurance that data              documented to describe that               inquired with appropriate personnel to
           transmissions in DCPS from       management ensures data                   confirm that policies and procedures
           user organizations are           transmissions in DCPS from                related to the processing of DCPS
           authorized, complete, accurate   organizations are authorized,             data transmissions existed and were
           and secure.                      complete, accurate and secure.            documented.
                                            Compliance with the payroll               Inspected pay processing schedules,      No relevant exceptions noted.
                                            disbursement processing schedule is       observed the payroll disbursement
                                            monitored by management.                  process, and inquired with appropriate
                                                                                      personnel to confirm the management
                                                                                      monitored and reviewed the payroll
                                                                                      disbursement processing schedule.
                                            Each operator is required to have a       Inspected a randomly selected sample     Payroll Officer Users:
                                            completed systems access authorized       of 45 user authorization forms and       Seven of 45 payroll office users’
                                            authorization form before being           inquired with appropriate personnel to   SAAR forms selected for testing
                                            granted access to the system.             confirm that each operator was           contained an authorization for
                                                                                      required to have an authorization form   access on the SAAR form, which
                                            Authorization profiles over users limit   before being granted access to the       did not match access granted within
                                            what transactions data entry personnel    system and that profiles for user’s      DCPS; and one of 45 payroll office
                                            can enter.                                limit what transactions data entry       user’s SAAR forms selected for
                                                                                      personnel can enter.                     testing did not contain a
                                                                                                                               supervisor’s signature.

                                                                                                                               Non-Payroll Office Users:
                                                                                                                               Four of 45 non-payroll payroll
                                                                                                                               office users’ SAAR forms selected
                                                                                                                               for testing contained an
                                                                                                                               authorization for access on the
                                                                                                                               SAAR form, which did not match
                                                                                                                               access granted within DCPS. In
                                                                                                                               addition, four of the 45 non-payroll
                                                                                                                               office users’ SAAR forms could not
                                                                                                                               be located.




                                                                            40
No.   Control Objective   Control Activities                       Tests Performed                          Results of Testing
                          Remote terminal connections are          Observed remote terminal connections     DFAS-Charleston
                          secured and are connected via            and inquired with appropriate            Users had access to DCPS from
                          government issued computers.             personnel to confirm they were           remote locations using Secure Web
                                                                   secured and are connected via            Access over non-DoD furnished
                                                                   government computers.                    equipment. As a mitigating
                                                                                                            circumstance, these users were still
                                                                                                            subject to DCPS user access
                                                                                                            controls (for example, a user would
                                                                                                            still have to sign into DCPS with a
                                                                                                            unique user ID and password).
                          Data entry terminals are connected to    Observed after-hours processes and       No relevant exceptions noted.
                          the system only during specified         inquired with appropriate personnel to
                          periods of the day, which corresponds    confirm terminals were not connected
                          with the business hours of the data      after business hours.
                          entry personnel.
                          User identification (ID) and             Observed the DCPS log-in process         No relevant exceptions noted.
                          passwords are required to gain access    and inquired with appropriate
                          to the DCPS application.                 personnel to confirm that user IDs and
                                                                   passwords were required to gain
                                                                   access to the DCPS application.
                          On-line access logs are maintained by    Inspected access logs and emails and     No relevant exceptions noted.
                          the SMO, and the logs are reviewed       inquired with appropriate personnel to
                          regularly for unauthorized access        confirm that logs were maintained by
                          attempts.                                the SMO and the logs were reviewed
                                                                   regularly for unauthorized access
                                                                   attempts.
                          Each terminal automatically              Observed system inactivity and           No relevant exceptions noted.
                          disconnects from the system when not     Inquired with appropriate personnel to
                          used after a specified period of time.   confirm that each terminal
                                                                   automatically disconnected from the
                                                                   system when not used after a specified
                                                                   period of time.
                          When terminals are not in use,           Observed facility and inquired with      No relevant exceptions noted.
                          terminal rooms are locked, or the        appropriate personnel to confirm that
                          terminals are capable of being           when terminals were not in use,
                          secured.                                 terminal rooms were locked, or the
                                                                   terminals were capable of being
                                                                   secured.




                                                         41
No.        Control Objective                 Control Activities                        Tests Performed                          Results of Testing
      11   Controls are reasonable to        Policies and procedures are               Read policies and procedures and         No relevant exceptions noted.
           ensure that transmissions from    documented to describe that               inquired with appropriate personnel to
           interfacing systems are           transactions from interfacing systems     confirm that policies and procedures
           subjected to the payroll system   are subjected to the payroll system       related to the processing of interface
           edits, validations and error-     edits, validations and error-correction   files existed and were documented.
           correction procedures.            procedures.
                                             A control group is responsible for        Inspected a haphazard sample of 45       DFAS-Denver
                                             controlling and monitoring rejected       Personnel Interface Invalid Reports      Due to technical difficulties with
                                             transmissions included on the             and inquired with appropriate            the document management system
                                             Personnel Interface Invalid Report.       personnel who clear the Personnel        used to store the Personnel Interface
                                                                                       Interface Invalid Reports to confirm     Invalid Reports, the Personnel
                                                                                       the reports were used to identify and    Interface Invalid Reports could not
                                                                                       resolve rejected transmissions.          be provided prior to March 27,
                                                                                                                                2005, which represented 18 of the
                                                                                                                                45 reports selected for testing.
                                                                                                                                Additionally, one of the remaining
                                                                                                                                27 reports available from March 28,
                                                                                                                                2005 through June 30, 2005 could
                                                                                                                                not be located, which left the
                                                                                                                                sample of 26 to be reviewed.
                                                                                                                                Annotations on 23 of the 26
                                                                                                                                Personnel Interface Invalid Reports
                                                                                                                                from March 28, 2005 through June
                                                                                                                                30, 2005 did not include the
                                                                                                                                corrective actions taken; 18 out of
                                                                                                                                the 26 Personnel Interface Invalid
                                                                                                                                Reports provided were not dated as
                                                                                                                                completed, and 12 of the
                                                                                                                                26 Personnel Interface Invalid
                                                                                                                                Reports were not initialed as
                                                                                                                                completed.

                                                                                                                                DFAS-Charleston
                                                                                                                                Due to the inability of the system to
                                                                                                                                allow annotation of the Personnel
                                                                                                                                Interface Invalid Reports and
                                                                                                                                payroll office personnel performed
                                                                                                                                an undocumented random review of
                                                                                                                                the reports instead of a documented



                                                                              42
No.   Control Objective   Control Activities                      Tests Performed                          Results of Testing
                                                                                                           review all reports, the audit team
                                                                                                           could not determine that the
                                                                                                           Personnel Interface Invalid Reports
                                                                                                           are properly corrected, annotated,
                                                                                                           and reviewed by supervisors.
                                                                                                           Therefore, testing of the reports at
                                                                                                           DFAS Charleston payroll office
                                                                                                           was not performed.

                                                                                                           DFAS-Pensacola
                                                                                                           Ten of the 44 Personnel Interface
                                                                                                           Invalid Reports were not available
                                                                                                           for review. The remaining
                                                                                                           34 reports that were reviewed did
                                                                                                           not always have the final resolution
                                                                                                           of errors annotated in the report.
                                                                                                           The Personnel Interface Invalid
                                                                                                           Reports were not reviewed by a
                                                                                                           supervisor to ensure all exceptions
                                                                                                           noted on the report had been
                                                                                                           corrected by the payroll technician.
                          The data processing control group has   Inspected schedules used by the data     No relevant exceptions noted.
                          a schedule by application that shows    processing group and inquired with
                          when outputs should be completed,       appropriate personnel to confirm they:
                          when they need to be distributed, who
                          the recipients are, and the copies      • Had a schedule by application that
                          needed; reviews output products for       showed when outputs needed to be
                          general acceptability; and reconciles     completed, when they needed to be
                          control information to determine          distributed, who the recipients
                          completeness of processing.               were, and the copies needed;

                                                                  • Reviewed output products for
                                                                    general acceptability, and

                                                                  • Reconciled control information to
                                                                    determine completeness of
                                                                    processing.




                                                        43
No.        Control Objective               Control Activities                        Tests Performed                          Results of Testing
                                           The system provides an audit trail of     Inspected audit trails of transactions   No relevant exceptions noted.
                                           all transactions processed, transaction   and inquired with appropriate
                                           errors, error descriptions, and error     personnel to confirm that erroneous
                                           correction procedures. Audit trails are   transactions were reviewed by
                                           reviewed by supervisory personnel         supervisory personnel, captured,
                                           and erroneous data are captured,          reported, investigated, and corrected.
                                           reported, investigated, and corrected.
                                           For interfacing systems, record counts    Inspected interface files and inquired   No relevant exceptions noted.
                                           are accumulated and compared to           with appropriate personnel to confirm
                                           footer control totals to help determine   that record counts matched control
                                           the completeness of interface             totals in the footer to determine
                                           processing. Out-of-balance conditions     completeness of interface processing
                                           are reported, corrected and reentered.    and that out-of-balance conditions
                                                                                     were reported, corrected and
                                                                                     reentered.
                                           Batch transactions without pre-           Observed batch process monitoring to     No relevant exceptions noted.
                                           assigned serial numbers are               confirm transactions without pre-
                                           automatically assigned a unique           assigned serial numbers were
                                           sequence number, which is used by         automatically assigned a unique
                                           the computer to monitor that all          sequence number.
                                           transactions are processed.
      12   Controls provide reasonable     Policies and procedures are               Read policies and procedures and         No relevant exceptions noted.
           assurance that personnel        documented to describe that personnel     inquired with appropriate personnel to
           payroll records and other       payroll records and other sensitive       confirm that policies and procedures
           sensitive information is        information is maintained and             related to the maintenance of
           maintained and disposed of in   disposed of in accordance with            personnel payroll records and other
           accordance with Government-     Government-wide and agency specific       sensitive information existed and were
           wide and agency specific        guidelines.                               documented.
           guidelines.
                                           All documents and storage media are       Observed storage processes and           No relevant exceptions noted.
                                           stored in physically and                  inquired with appropriate personnel to
                                           environmentally secure containers.        confirm documents and storage media
                                                                                     were stored properly in
                                                                                     environmentally secure containers.
                                           All visitors to the Payroll Office must   Inspected visitor logs to the payroll    No relevant exceptions noted.
                                           sign-in and out with the authorized       office and inquired with appropriate
                                           security personnel.                       personnel to observe that visitors
                                                                                     signed in with the authorized security
                                                                                     personnel.



                                                                           44
No.   Control Objective   Control Activities                       Tests Performed                          Results of Testing
                          All terminals and payroll records are    Observed the terminal rooms and          No relevant exceptions noted.
                          located in physically secured            inquired with appropriate personnel to
                          locations.                               confirm that access to the rooms was
                                                                   restricted.
                          Users dispose of personnel and payroll   Observed destruction bins and            No relevant exceptions noted.
                          records in accordance with               inquired with appropriate personnel to
                          government-wide and agency-specific      confirm that payroll records were
                          guidelines.                              disposed of in accordance with
                                                                   Government-wide and agency-specific
                                                                   guidelines.




                                                          45
General Computer Control Objectives, Activities, Test Procedures and Results of Testing

  No.     Control Objective                  Control Activity                       Test Procedure                             Results of Testing
          Enterprise-Wide Security
          Program Planning
   1      Risks are periodically assessed.   DFAS-Pensacola                         DFAS-Pensacola                             No relevant exceptions noted
                                             DoD and DFAS policy both direct an     Inquired with security personnel
                                             annual Information assurance review.   regarding the frequency of the risk
                                             Review appropriate generated           assessment process.
                                             documentation to ensure that these
                                             processes are accomplished.            Inspected the latest Risk Assessment
                                                                                    documented in the SSAA to confirm
                                                                                    that risks were periodically assessed.
   2      A security plan is documented,     DFAS-Pensacola                         DFAS-Pensacola                             No relevant exceptions noted
          approved and kept current.         DoD and DFAS policy both direct an     Inspected the DCPS SSAA to confirm
                                             annual Information assurance review.   it has been documented, kept current
                                             Review appropriate generated           and appropriately approved by
                                             documentation to ensure that these     management.
                                             processes are accomplished.
                                                                                    Inspected the DCPS Security Policy,
                                                                                    Security Requirements, and
                                                                                    Certification Test and Evaluation Plan
                                                                                    and Procedures to confirm that each
                                                                                    had been updated.
   3                                                                                                                           Control objective left
                                                                                                                               intentionally blank
   4      Owners and users are aware of      DISA-Mechanicsburg                     DISA-Mechanicsburg                         No relevant exceptions noted
          security policies.                 Ongoing security awareness             Inspected the Security Awareness
                                             curriculum that include: New           Training materials to confirm they are
                                             Employee Security Briefing; Annual     documented.
                                             Security Briefing; Information
                                             Assurance (IA) Awareness Training;     Selected a haphazard sample of
                                             Courier Briefings; SF 312 Non-         45 employees and inspected their
                                             Disclosure Briefing; Antiterrorism     training files to confirm the completion
                                             Force Protection Briefings; System     of the necessary security training and a
                                             Administrator (SA) Training, and a     signoff.
                                             Security Page on Command Intranet
                                             site.                                  Inspected the training sign-in sheets to



                                                                         46
No.   Control Objective                 Control Activity                             Test Procedure                            Results of Testing
                                                                                     confirm that employees attended
                                                                                     annual training.

                                                                                     Inspected documentation showing that
                                                                                     management had active security
                                                                                     awareness programs in place that
                                                                                     proactively emphasized the security
                                                                                     policies to data owners and users.

                                        DFAS-Pensacola                               DFAS-Pensacola
                                        Ongoing security awareness programs          Inspected the Security Awareness
                                        that include initial training and periodic   Training materials to confirm they
                                        refresher training.                          were documented.

                                                                                     Selected a haphazard sample of
                                                                                     employees and inspected their training
                                                                                     files to confirm the completion of the
                                                                                     necessary security training and a
                                                                                     signoff.

                                                                                     Inspected the training database to
                                                                                     confirm that employees attended
                                                                                     annual training.

                                                                                     Inspected documentation that
                                                                                     management had active security
                                                                                     awareness programs in place that
                                                                                     proactively emphasized the security
                                                                                     policies to data owners and users.
5     An incident response capability   DISA-Mechanicsburg                           DISA-Mechanicsburg                        No relevant exceptions noted
      has been implemented.             DISA Policy Letter 05-04 “Computer           Inspected the incident plan detailed in
                                        Security Incident Handling and               the SSAA to confirm it was
                                        Reporting” May 4, 2005, has been             documented.
                                        implemented.
                                                                                     Selected a haphazard sample of
                                                                                     incidents and observed the incidents
                                                                                     were addressed based on the incident
                                                                                     response plan.




                                                                       47
No.   Control Objective                    Control Activity                         Test Procedure                             Results of Testing
 6    Hiring, transfer, termination, and   DISA-Mechanicsburg                       DISA-Mechanicsburg                         No relevant exceptions noted
      performance policies address         Personnel and Industrial Security        Inspected the hiring, transfer,
      security.                            Program(s) implemented in accordance     termination and performance policies
                                           with DoD 5200.2-R, DoD Directive         to confirm they were documented and
                                           (DoDD) 8500.1, DoDI 8500.2, and the      addressed security requirements.
                                           Computing Services Security
                                           Handbook.                                Inquired with security personnel to
                                                                                    confirm that debriefs were conducted
                                                                                    when employees were terminated and
                                                                                    that a DISA Form 70 was used to note
                                                                                    the collection of DISA property.

                                                                                    Observed that a checkout form was
                                                                                    sent to the System Administrator to
                                                                                    document that system access had been
                                                                                    removed for a terminated employee.
7     A training program is                DISA-Mechanicsburg                       DISA-Mechanicsburg                         There was no structured
      implemented to provide               A robust Security Awareness              Inquired with the security personnel to    functional training program
      assurance that employees have        curriculum that includes: New            confirm that a training program was        established at
      adequate training and expertise.     Employee Security Briefing; Annual       established.                               DISA-Mechanicsburg for all
                                           Security Briefing; information                                                      DCPS personnel. In addition,
                                           assurance Awareness Training; Courier    Inspected documentation to confirm         there was no process in place to
                                           Briefings; SF 312 Non-Disclosure         the existence of a training program.       independently verify users
                                           Briefing; Antiterrorism Force                                                       completed training and
                                           Protection Briefings; and SA             Inspected training materials to confirm    submitted completion
                                           Certification/Training has been          they provided personnel with adequate      statements. However,
                                           implemented.                             training.                                  DISA-Mechanicsburg did have
                                                                                                                               a process for users to obtain
                                                                                    Selected a haphazard sample of             training.
                                                                                    45 employees who had access to DCPS
                                                                                    and inspected their training records to
                                                                                    confirm specific job function training
                                                                                    was occurring.

                                           DFAS-Pensacola                           DFAS-Pensacola
                                           An ongoing security awareness            Inquired with the Information Security
                                           programs that include initial training   Officer (ISO) to confirm that a training
                                           and periodic refresher training is       program was established.
                                           implemented.



                                                                         48
No.   Control Objective                    Control Activity                         Test Procedure                             Results of Testing
                                                                                    Inspected documentation to confirm
                                           Additionally the DCPS SSAA includes      the existence of a training program.
                                           an Appendix J, System Rules of
                                           Behavior, which describes the IA         Inspected training materials to confirm
                                           operations of the DoD information        they provided personnel with adequate
                                           system and clearly delineates IA         training and expertise.
                                           responsibilities and expected behavior
                                           of all personnel.                        Selected a haphazard sample of
                                                                                    45 employees who had access to DCPS
                                                                                    and inspected their training records to
                                                                                    confirm specific job function training
                                                                                    was occurring.
8     Management periodically              DISA-Mechanicsburg                       DISA-Mechanicsburg                         No relevant exceptions noted
      assesses the appropriateness of      The Director’s Policy Letters (DPLs)     Inquired with the Security Officer to
      security policies and compliance     and Standard Operating Procedures        confirm management assessed the
      with them.                           (SOP) are reviewed and updated. SRR      appropriateness of the security policies
                                           are conducted at least every three       and compliance with them.
                                           years.
                                                                                    Inspected the DCPS Security
                                                                                    Requirements and Information Systems
                                                                                    Security Policy Certification Test and
                                                                                    Evaluation Procedures to confirm that
                                                                                    an annual IA review was conducted
                                                                                    and that comprehensive vulnerability
                                                                                    management was in place.
9     Management ensures that              DISA-Mechanicsburg                       DISA-Mechanicsburg                         No relevant exceptions noted
      corrective actions are effectively   The Vulnerability Management System      Observed the SRR process to confirm
      implemented.                         (VMS) is used to track findings from     that corrective actions were effectively
                                           the SRR process. DECC MECH               implemented for identified SRR
                                           management is responsible for tracking   findings.
                                           and closing all findings that resulted
                                           from the SRR process.                    Selected a haphazard sample of SRRs
                                                                                    and inspected the VMS reports to
                                                                                    confirm findings identified by the SRR
                                                                                    process were addressed.

                                                                                    Inspected prior audit reports or reviews
                                                                                    to confirm findings and
                                                                                    recommendations presented were



                                                                       49
No.   Control Objective                  Control Activity                             Test Procedure                             Results of Testing
                                                                                      addressed.

                                         DFAS-Pensacola                               DFAS-Pensacola
                                         Management tracks the observations of        Inspected prior audit reports or reviews
                                         prior audit reports and confirms that        to confirm findings and
                                         observations are corrected in a timely       recommendations presented were
                                         manner.                                      addressed.
10    A comprehensive vulnerability      DISA-Mechanicsburg                           DISA-Mechanicsburg                         No relevant exceptions noted
      management process that            Vulnerabilities are tracked in the VMS       Inspected the vulnerability
      includes the systematic            database. Prior to connection to the         management policy and documentation
      identification and mitigation of   network, the SA must run a VS08              to confirm that the process included
      software and hardware              report detailing Information Assurance       systematic identification and mitigation
      vulnerabilities is in place.       Vulnerability Management (IAVM)              of software and hardware
                                         notices for the asset's operating system.    vulnerabilities.
                                         All IAVM notices must be mitigated
                                         and applicable patches loaded prior to       Inspected the most recent vulnerability
                                         connecting the asset to the network.         assessment to confirm that
                                         Once all checklists have been applied        vulnerabilities were being identified,
                                         from the STIG and the vulnerability          and resolved after identification.
                                         alerts have been installed, a SRR and
                                         an ISS scan will be conducted of the         Inspected the VMS reports for the audit
                                         operating system. Security                   period to confirm vulnerabilities were
                                         assessments that require a scan will use     tracked and resolved in a timely
                                         the Internet Security Scanner (ISS) and      manner.
                                         the FSO Full Scan Policy. The scan
                                         will be conducted using a direct
                                         connection from the system running
                                         ISS to the system being assessed or the
                                         site is authorized to connect the asset to
                                         an isolated network during the ISS
                                         scan. Each site will place their self-
                                         assessment in the Security Readiness
                                         Review Database (SRRDB). If the
                                         systems have a database, web server, or
                                         any other software that has a STIG,
                                         they must go through a FSO SRR and
                                         the results put in the self-assessment of
                                         the SRR database.




                                                                        50
No.   Control Objective                    Control Activity                            Test Procedure                              Results of Testing
11    Changes to the DoD information       DFAS-Pensacola                              DFAS-Pensacola                              No relevant exceptions noted
      system are assessed for IA and       All changes made at are captured in the     Inquired with DCPS management to
      accreditation impact prior to        Change Management Information               confirm that management assessed
      implementation.                      System (CMIS). Information included         whether changes complied with
                                           in each change record is the requested      Information Assurance requirements
                                           time and date of implementation, the        and changes impacted accreditation
                                           action to occur, and justification of the   before moving the changes into the
                                           action.                                     production environment.

                                                                                       Observed outputs of CMIS to confirm
                                                                                       that the information included in each
                                                                                       change record included the requested
                                                                                       time and date of implementation, the
                                                                                       action to occur, and justification of the
                                                                                       action.
12    A DoD reference document             DISA-Mechanicsburg                          DISA-Mechanicsburg                          No relevant exceptions noted
      constitutes the primary source for   DISA has developed and requires             Inspected the DISA STIG to confirm
      security configuration or            compliance with the STIGs appropriate       that they constituted the primary source
      implementation guidance for the      to the operating system, application or     configuration or implementation
      deployment of newly acquired         hardware.                                   guidance for the deployment of newly
      IA- and IA-enabled Information                                                   acquired IA- and IA-enabled products.
      Technology (IT) products.
      Access Controls
13    Owners have classified resources     DFAS-Pensacola                              DFAS-Pensacola                              No relevant exceptions noted
      and related criteria have been       Management has classified DCPS              Inspected the DCPS SSAA and
      established.                         according to appropriate MAC level          inquired with data owners to confirm
                                           standards.                                  that a MAC level was assigned to
                                                                                       DCPS.
14    Resource owners have identified      DFAS-Pensacola                              DFAS-Pensacola                              No relevant exceptions noted
      authorized users and their access    The SAAR DD-2875 form is used to            Selected a haphazard sample of TSO
      authorized.                          identify authorized users and control       users from the TSO user list and
                                           their access.                               inspected their user access request
                                                                                       forms for existence and approval of
                                                                                       management.

                                                                                       Observed the DCPS application to
                                                                                       confirm that users possessed a valid
                                                                                       User ID and password to gain access to
                                                                                       the system.



                                                                         51
No.   Control Objective                Control Activity                    Test Procedure                              Results of Testing

                                                                           Inquired with security managers to
                                                                           confirm that supporting documentation
                                                                           was provided to them.

                                                                           Reviewed supporting documentation to
                                                                           confirm that inappropriate access was
                                                                           removed in a timely manner.

                                                                           Inspected a haphazard sample of
                                                                           45 profile changes and activity logs to
                                                                           confirm that management reviewed the
                                                                           changes and logs.

                                                                           Observed the entire population of ten
                                                                           terminated or transferred employees
                                                                           during the audit period to confirm that
                                                                           their system access was promptly
                                                                           terminated within the system.
15    Emergency and temporary access   DISA-Mechanicsburg                  DISA-Mechanicsburg                          No relevant exceptions noted
      authorization is controlled.     Emergency and temporary access      Inspected the emergency and
                                       authorization are controlled in     temporary access policy to confirm it
                                       accordance with DoD 5200.1-R; DoD   was documented.
                                       5200.2-R; DoDD 8500.1; DoDI
                                       8500.2, and Computing Services      Selected a random sample of 45 days
                                       Security Handbook.                  of emergency and temporary access
                                                                           requests and:

                                                                               •    Confirmed that the
                                                                                    authorization was approved
                                                                                    and that access was closed in
                                                                                    a timely manner.
                                                                               •    Confirmed that the emergency
                                                                                    and temporary access list was
                                                                                    periodically reviewed.
                                                                               •    Confirmed that all temporary
                                                                                    access authorizations were
                                                                                    established for least privileged
                                                                                    need-to-know access.


                                                                52
No.   Control Objective                Control Activity                            Test Procedure                           Results of Testing
16    Owners determine disposition     DFAS-Pensacola                              DFAS-Pensacola                           Forty-three of 148 DCPS
      and sharing of data.             Documented policies and procedures          Inspected documents authorizing file     interfaces did not have a
                                       are in the SSAA that govern the             sharing and file sharing agreements to   documented MOA or MOU
                                       sharing of data.                            confirm the owners approved the
                                                                                   sharing of data.

                                                                                   Inspected the DCPS SSAA to confirm
                                                                                   that a MAC level was assigned to
                                                                                   DCPS.

                                                                                   Inquired with key personnel to confirm
                                                                                   that a MOA or a MOU was
                                                                                   documented for all interfaces into
                                                                                   DCPS.
17    Adequate physical security       DISA-Mechanicsburg                          DISA-Mechanicsburg                       No relevant exceptions noted
      controls have been implemented   All DISA facilities at DECC ME are          Observed that physical safeguards were
      that are commensurate with the   locked at all times. Access is restricted   in place.
      risks of physical damage or      using proximity cards, with PIN
      access.                          technology, which are controlled and        Observed that facility penetration
                                       issued by the Security Manager.             testing processes were in place.


                                       The Naval Inventory Control Point
                                       conducts periodic, unannounced
                                       penetration testing to confirm that
                                       physical security is adequate.

                                       DECC MECH SSAA requires the
                                       performance of physical security
                                       inspections by the Security Office.
18    Visitors are controlled.         DISA-Mechanicsburg                          DISA-Mechanicsburg                       The visitors log used by the
                                       Visitor’s are controlled in accordance      Inspected the visitor policy,            DFAS TSO facility was not
                                       with DoD 5200.2-R; 5200.1-R and the         procedures, and logs to confirm they     fully completed for each visitor.
                                       Computing Services Security                 were documented.                         However, all visitors had visitor
                                       Handbook. Utilize access control                                                     badges that required them to
                                       database; proxy/pin technology; vetted      Observed the visitor check-in and        enter the facility through only
                                       badge exchange; Access Control              check-out process to confirm visitors    one guarded entrance.
                                       Monitor Personnel; visitors log, Visit      were logged.
                                       authorization Requests.



                                                                     53
No.   Control Objective                  Control Activity                          Test Procedure                            Results of Testing
                                                                                   Inquired with physical security
                                                                                   personnel and observed that visitor
                                                                                   access to DoD information was
                                                                                   determined by both its classification
                                                                                   and user need-to-know.

                                         DFAS-Pensacola                            DFAS-Pensacola
                                         All visitors must sign-in and out with    Inspected the visitor policy and
                                         the guard on duty.                        procedures to confirm it was
                                                                                   documented.
                                         The DCPS SSAA requires all non-
                                                                                   Observed the visitor check-in and
                                         cleared personnel to be escorted at all
                                                                                   check-out process to confirm all
                                         times while inside the building.
                                                                                   visitors were logged.

                                                                                   Inquired with physical security
                                                                                   personnel and observed that visitor
                                                                                   access to DoD information was
                                                                                   determined by both its classification
                                                                                   and user need-to-know.
19    Adequate logical access controls   User IDs and passwords are configured     DFAS-Pensacola                            The current version of Access
      have been implemented at the       according to DISA standards.              Observed that each TSO user account       Control Facility 2 (ACF2) does
      application layer.                                                           was assigned a security profile that      not allow for password character
                                                                                   restricted access.                        complexity as required by DoDI
                                                                                                                             8500.2. However, access to
                                                                                   Selected a haphazard sample of            DCPS was still subject to
                                                                                   45 TSO users from the TSO user list       password controls that included
                                                                                   and inspected their user access request   periodic changing and minimum
                                                                                   forms for existence and approval of       character lengths.
                                                                                   management.

                                                                                   Observed the DCPS application to
                                                                                   confirm that TSO users possessed a
                                                                                   valid User ID and password to gain
                                                                                   access to the system.

                                                                                   Inquired with security personnel and
                                                                                   observed supporting documentation to
                                                                                   confirm that inappropriate access was



                                                                       54
No.   Control Objective                    Control Activity                           Test Procedure                             Results of Testing
                                                                                      removed in a timely manner.

                                                                                      Confirm that password parameters
                                                                                      were in compliance with DoD
                                                                                      Instruction 8500.2 password
                                                                                      requirements.

                                                                                      Inspected documentation for a
                                                                                      haphazard sample of 45 terminated
                                                                                      employees to confirm that system
                                                                                      access was promptly terminated.
20    Passwords, tokens, or other          DFAS-Pensacola                             DFAS-Pensacola                             No relevant exceptions noted
      devices are used to identify and     Multiple layers of access controls are     Observed the DCPS application to
      authenticate users.                  used including; Common Access Card         confirm that users needed a valid User
                                           (CAC) and personal identification          ID and Password to gain access to the
                                           number, DCPS userid and password,          system.
                                           and a RSA SecurID for Database
                                           Administration, Configuration              Inspected system parameters to
                                           Management, Security, and Tech             confirm that the system required a User
                                           Support.                                   ID and Password.
21    Access paths are identified as       DISA-Mechanicsburg                         DISA-Mechanicsburg                         The firewalls supporting the
      part of a risk analysis and          Access paths are identified as part of     Inquired with network support              access path to DCPS were no
      documented in an access path         the Mechanicsburg Enclave SSAA and         personnel that user management             longer supported by the vendor
      diagram.                             documented in the network diagram          controls, firewalls, intrusion detection   and, therefore, were not
                                           within the SSAA.                           systems (IDS), and authentications         configured with rules. To
                                                                                      were all used to control network           compensate for the lack of
                                           Firewalls and routers are used to          access.                                    firewall rules, the routers
                                           restrict access within the network.                                                   supporting this access path were
                                                                                      Inspected the network diagrams for         configured to deny all requests
                                                                                      DISA-Mechanicsburg to confirm that         except for items included on
                                                                                      access paths were documented and           their access control lists.
                                                                                      monitored by intrusion detection
                                                                                      systems.
22    Access is restricted to data files   DISA-Mechanicsburg                         DISA-Mechanicsburg                         No relevant exceptions noted
      and software programs.               The DISA System Support Office             Inspected ACF2 user profiles for the
                                           (SSO), a unit independent of DECC          DCPS system to confirm that
                                           operations, is responsible for             administrator level access restrictions
                                           maintaining the system libraries.          were established around the data files
                                           Access to system libraries is restricted   and software programs.



                                                                          55
No.   Control Objective                 Control Activity                            Test Procedure                              Results of Testing
                                        to authorized individuals                   Inspected the access logs and inquired
                                                                                    with security personnel to confirm that
                                                                                    the access logs were reviewed for
                                                                                    inappropriate access and that system
                                                                                    libraries were managed and maintained
                                                                                    to protect privileged programs.
23    Access settings have been         DISA-Mechanicsburg                          DISA-Mechanicsburg                          Access justification was not
      implemented in accordance with    Access settings have been implemented       Inspected a haphazard sample of             documented on the Form
      the access authorizations         in accordance with the access               SAAR Form DD2875s to confirm that           DD2875 for four of
      established by the resource       authorizations established by signature     each form detailed the system support       45 DISA-Mechanicsburg
      owners.                           authority of resource owner on Form         user’s justification for access, security   personnel.
                                        DD2875 and in accordance with               clearance level, and that each Form
                                        DoDD 8500.1; DoDI 8500.2 and                DD2875 was properly approved.               One of 45 users had access to
                                        STIGs.                                                                                  the DCPS production
                                                                                    DFAS-Pensacola                              environment that was not
                                        DFAS-Pensacola                              Inspected a haphazard sample of             authorized on their Form
                                        The Technical Support Office assigns        SAAR Form DD2875s to confirm that           DD2875.
                                        security profiles to each userid based      each form detailed the TSO user’s
                                        on need to know as demonstrated by an       justification for access, security
                                        approved Form DD2875, request for           clearance level, and that each Form
                                        system access. TSOPE Database               DD2875 was properly approved.
                                        Administrator also assigns security
                                        profiles to development users through
                                        the Integrated Database management
                                        System (IDMS) which restricts access
                                        to program libraries and databases.
24    Telecommunications controls are   DISA-Mechanicsburg                          DISA-Mechanicsburg                          The firewalls supporting the
      properly implemented in            Remote access to the Internet is           Inspected the telecommunications            access path to DCPS were no
      accordance with authorizations     regulated by positive technical            policy to confirm that is was               longer supported by the vendor
      that have been granted.            controls such as firewalls, routers, and   documented.                                 and, therefore, were not
                                         proxy services and screened subnets,                                                   configured with rules. To
                                         also called demilitarized zones            Observed the existence                      compensate for this lack of
                                         (DMZ), or through systems that are         telecommunication monitoring                firewall rules, the routers
                                         isolated from all other DoD                controls.                                   supporting this access path were
                                         information systems through physical                                                   configured to deny all requests
                                         means.                                     Obtained firewall rules to confirm they     except for items included on
                                                                                    were documented.                            their access control list.
                                        There is a remote dial-in router
                                        provided for Systems Administrators



                                                                      56
No.   Control Objective                    Control Activity                           Test Procedure                          Results of Testing
                                            which requires Secure Shell
                                            restrictions. Enterprise Security
                                            Manager is installed on some of these
                                            systems.
25    Procedures are in place to clear     DISA-Mechanicsburg                         DISA-Mechanicsburg                      No relevant exceptions noted
      sensitive information and            All documents, equipment, and              Inspected the Disposition of
      software from computers, disks,      machine-readable media containing          Unclassified DoD Computer Hard
      and other equipment or media         sensitive data are cleared and sanitized   Drives policy to confirm it was
      when they are disposed of or         before being released, and sign off is     documented.
      transferred to another use.          required to certify the destruction of
                                           such media.                                Observed the access controls to the
                                                                                      media while it was waiting to be
                                                                                      cleared or destroyed.

                                                                                      Observed the procedures in place to
                                                                                      clear or destroy equipment and media.
26    Audit trails are maintained at the   DISA-Mechanicsburg and DFAS-               DISA-Mechanicsburg                      No relevant exceptions noted
      application layer, operating         Pensacola                                  Inquired with security personnel to
      system (OS), and database layer.     A security audit trail is implemented      confirm that audit trails were
                                           for each system that documents the         implemented at the application and
                                           identity of each person/device having      operating system levels.
                                           access to a system, the time of that
                                           access, user activity, and any actions     Inspected the audit log to confirm
                                           which attempt to change security levels    system information was logged.
                                           or privileges established for the user.
                                                                                      Inquired with security personnel and
                                                                                      observed that audit trails were
                                                                                      maintained.

                                                                                      DFAS-Pensacola
                                                                                      Inquired with security personnel to
                                                                                      confirm that audit trails were
                                                                                      implemented at the application and
                                                                                      operating system levels.

                                                                                      Inspected the audit log to confirm
                                                                                      system information was logged.

                                                                                      Inquired with security personnel and



                                                                         57
No.   Control Objective                   Control Activity                            Test Procedure                           Results of Testing
                                                                                      observed that audit trails were
                                                                                      maintained.
27    The contents of audit trails are    DISA-Mechanicsburg                          DISA-Mechanicsburg                       No relevant exceptions noted
      protected against unauthorized      Contents of audit trails are protected in   Confirmed that policies were
      access, modification or deletion.   accordance with STIGs and the DISA          documented to limit access to audit
                                          Computing Services Security                 trails.
                                          Handbook.
                                                                                      Observed access to the audit logs to
                                          User’s authorization for access to          confirm that activities that might
                                          various systems is identified in each       modify, bypass, or negate safeguards
                                          individual’s new user agreement             controlled by the system and the audit
                                          (completed when account is created).        trails were protected against
                                                                                      unauthorized access, modification, or
                                                                                      deletion.

                                                                                      Observed that only selected/limited
                                                                                      number of individuals such as the ISSO
                                                                                      and Information Assurance Manager
                                                                                      had access to the audit trails.

                                          DFAS-Pensacola                              DFAS-Pensacola
                                          Adheres to DITSCAP requirements for         Confirmed that policies were
                                          system access and content, retention        documented to limit access to audit
                                          and protection of audit trails. The         trails.
                                          most recent testing of compliance with
                                          DITSCAP guidance is contained in the        Observed access to the audit logs to
                                          DCPS SSAA, Appendices H and P.              confirm that activities that might
                                                                                      modify, bypass, or negate safeguards
                                                                                      controlled by the system and the audit
                                                                                      trails were protected against
                                                                                      unauthorized access, modification, or
                                                                                      deletion.

                                                                                      Observed that only selected/limited
                                                                                      number of individuals such as the ISSO
                                                                                      and Information Assurance Manager
                                                                                      had access to the audit trails.




                                                                         58
No.   Control Objective                    Control Activity                          Test Procedure                            Results of Testing
28    Tools are available for the review   DISA-Mechanicsburg                        DISA-Mechanicsburg                        No relevant exceptions noted
      of audit records and for report      Tools are available for review through    Observed the audit tools to confirm
      generation from audit records.       System Management Facility,               they existed.
                                           DISPATCH and ACF2 report facility.
                                                                                     Observed that reports were being
                                                                                     generated and that they were reviewed
                                                                                     by system security personnel.
29    Actual or attempted                  DISA-Mechanicsburg                        DISA-Mechanicsburg                        No relevant exceptions noted
      unauthorized, unusual, or            ACF2 is maintained at both DECC           Inspected copies of the policies and
      sensitive network access is          MECH and the various payroll offices      procedures relating to access controls
      monitored and suspicious or          by a series of security administrators    to confirm they were documented.
      irregular access activity is         with differing roles (administration,
      investigated and appropriate         user accounts etc.) The logs are          Inquired with the System Security
      action taken.                        centrally reviewed at DECC MECH.          Administrator to confirm that system
                                           Multiple unsuccessful login attempts      access such as unauthorized, unusual,
                                           result in the account being locked. If    or sensitive access is monitored.
                                           the account is unused for a specified
                                           period then the account is deactivated.   Inquired with the SA to confirm that
                                                                                     suspicious or irregular access activity
                                                                                     was investigated and responses were
                                                                                     taken.

                                                                                     Inspected audit log reviews and
                                                                                     incident reports to confirm that
                                                                                     investigations and actions were taking
                                                                                     place.
30    The acquisition, development,        DISA-Mechanicsburg                        DISA-Mechanicsburg                        Software that supports mobile
      and/or use of mobile code to be      Use of mobile code is only permitted      Inspected the DoD systems guidelines,     code was found on the DCPS
      deployed in DoD systems meet         following a risk assessment,              standards, and regulations concerning     production Logical Partition
      current guidelines, standards and    categorization of the mobile code, and    mobile codes to confirm they were         (LPAR). ACF2 was configured
      regulations.                         counter measures have been                documented.                               to prevent non authorized code
                                           implemented. A waiver has been                                                      from running on the DCPS
                                           obtained from the responsible Chief       Inquired with the System                  LPAR.
                                           Information Officers office.              Administrator to confirm that the
                                                                                     acquisition, development, and/or use of
                                                                                     mobile code to be deployed in DoD
                                                                                     systems met current guidelines,
                                                                                     standards and regulations.




                                                                         59
No.   Control Objective                   Control Activity                          Test Procedure                            Results of Testing
                                                                                    Inspected a list of software on the
                                                                                    DCPS production environment for
                                                                                    software that supported mobile codes.
31    All servers, workstations and       DISA-Mechanicsburg                        DISA-Mechanicsburg                        No relevant exceptions noted
      mobile computing devices            Anti-virus software is installed on       Observed that servers, workstations
      implement virus protection that     personal computers, laptops, and          and mobile computing devices
      includes a capability for           systems under DECC MECH control.          implemented virus protection that
      automatic updates.                                                            allows the capability of automatic
                                                                                    updates.
32    All Virtual Private Network         DISA-Mechanicsburg                        DISA-Mechanicsburg                        No relevant exceptions noted
      (VPN) traffic is visible to         ISS Real Secure is installed at various   Inquired with SAs to confirm that all
      network IDS.                        points that give visibility into the      VPN traffic is visible to network IDS.
                                          network traffic ingressing and
                                          egressing the enclave.                    Inspected system network diagram and
                                                                                    inquired with the SA to confirm that
                                                                                    VPN traffic is included on the diagram.
33    At a minimum, medium-               DISA-Mechanicsburg                        DISA-Mechanicsburg                        No relevant exceptions noted
      robustness Commercial Off-the-      Appropriate IA products are               Inquired with security personnel to
      Shelf (COTS) IA and IA-enabled      implemented to protect sensitive          confirm that at a minimum, medium-
      products are used to protect        information when the information          robustness COTS IA and IA-enabled
      sensitive information when the      transits public networks or the system    products were used to protect sensitive
      information transits public         handling the information is accessible    information when the information
      networks or the system handling     by individuals who are not authorized     transits public networks or the system
      the information is accessible by    to access the information on the          handling the information was
      individuals who are not             system.                                   accessible by individuals who were not
      authorized to access the                                                      authorized to access the information on
      information on the system.                                                    the system for each of the DCPS
                                                                                    locations.

                                                                                    Observed the use of access control
                                                                                    software to confirm access to data was
                                                                                    controlled.
34    Unless there is an overriding       DISA-Mechanicsburg                        DISA-Mechanicsburg                        No relevant exceptions noted
      technical or operational problem,   Work stations are locked                  Observed a haphazard sample of
      workstation screen-lock             systematically after a period of          workstations to confirm screen-lock
      functionality is associated with    inactivity in accordance with DoDI        functionality was applied.
      each workstation.                   8500.2. A password is required to
                                          unlock the workstation.




                                                                        60
No.   Control Objective                     Control Activity                          Test Procedure                             Results of Testing
                                            DFAS-Pensacola                            DFAS-Pensacola
                                            The Desktop Management Initiative         Observed a haphazard sample of
                                            (DMI) (not associated with TSOPE)         workstations to confirm screen-lock
                                            controls the configuration of all DFAS    functionality was applied.
                                            computers including the operating
                                            system and the application of screen-
                                            lock functionality.
35    Instant messaging traffic to and      DISA-Mechanicsburg                        DISA-Mechanicsburg                         No relevant exceptions noted
      from instant messaging clients        Use of Instant Messaging applications     Inquired with security personnel to
      that are independently configured     is not permitted and network personnel    confirm that the use of instant
      by end users and that interact        monitor common Firewall and system        messaging is against policy.
      with a public service provider is     ports to identify and eliminate the use
      prohibited within DoD                 of instant messaging applications.        Inspected firewall/router access control
      information systems.                                                            lists (ACL) rules to confirm instant
                                                                                      messaging was blocked.



                                            DFAS-Pensacola                            DFAS-Pensacola
                                            DMI controls the configuration of         Inquired with security personnel to
                                            computers and instant messaging           confirm that the use of instant
                                            program are not authorized. TSOPE         messaging was against policy.
                                            monitors application usage through an
                                            automated software auditing               Inquired with security personnel to
                                            application that runs regularly when      confirm firewall rules were configured
                                            users logon to their workstation.         to block instant messaging.
                                            Instant messaging programs are
                                            identified as part of that auditing       Inspected workstations to confirm that
                                            process.                                  instant messaging software was not
                                                                                      loaded and users did not have
                                                                                      administrative rights to computer.
36    For Automated Information             DISA-Mechanicsburg and DFAS-              DISA-Mechanicsburg                         No relevant exceptions noted
      System (AIS) applications, a list     Pensacola                                 Inspected the site SSAA to confirm the
      of all (potential) hosting enclaves   All interconnections of DoD               DCPS enclave was identified and
      is developed and maintained           information systems are to be             documented.
      along with evidence of                managed continuously to minimize risk
      deployment planning and               by ensuring that the assurance of one     DFAS-Pensacola
      coordination and the exchange of      system is not undermined by               Inspected the Service Level Agreement
      connection rules and                  vulnerabilities of interconnected         between DISA and DFAS to confirm



                                                                         61
No.   Control Objective                   Control Activity                         Test Procedure                             Results of Testing
      requirements.                       systems                                  evidence of deployment planning and
                                                                                   coordination, and the exchange of
                                                                                   connection rules and requirements.
37    Group authenticators for            DISA-Mechanicsburg and DFAS-             DISA-Mechanicsburg                         The DFAS-Pensacola personnel
      application or network access       Pensacola                                Inquired with system security              who work in the DCPS
      may be used only in conjunction     Group authenticators are not used for    personnel to confirm group                 operations room used group
      with an individual authenticator.   DCPS or network access. Upon initial     authenticators for application, network    authentication to facilitate the
                                          system login, a user’s actions are       or operating system were used.             operations and maintenance of
                                          tracked based on their unique user                                                  various payroll databases.
                                          account.                                 If so, inquired to understand the reason
                                                                                   behind the usage of group
                                                                                   authenticators. (In many cases it was a
                                                                                   system limitation)

                                                                                   If so, inquired if users were
                                                                                   authenticated individually prior to the
                                                                                   use of a group authenticator.

                                                                                   DFAS-Pensacola
                                                                                   Confirmed through inquiry if group
                                                                                   authenticators for application and
                                                                                   network were used.

                                                                                   If so, inquired to understand the reason
                                                                                   behind the usage of group
                                                                                   authenticators. (In many cases it was a
                                                                                   system limitation)

                                                                                   If so, inquired if users were
                                                                                   authenticated individually prior to the
                                                                                   use of a group authenticator.
38    To help prevent inadvertent         DISA-Mechanicsburg                       DISA-Mechanicsburg                         No relevant exceptions noted
      disclosure of controlled            Exchange Server Administration           Obtained and inspected a listing of
      information, all contractors and    includes the specific configuration of   email addresses for DCPS contractors
      foreign nationals are identified    email addresses and display names for    and foreign nationals to confirm their
      by e-mail addresses and display     contractors and foreign nationals.       display names identified them as
      names.                                                                       contractors or foreign nationals.




                                                                       62
No.   Control Objective                     Control Activity                          Test Procedure                             Results of Testing
39    Unclassified, sensitive data          DISA-Mechanicsburg                        DISA-Mechanicsburg                         Sensitive but unclassified
      transmitted through a                 Encryption data streams are in the        Inquired with security personnel to        personnel and payroll data
      commercial or wireless network        process of conforming to the Federal      confirm DCPS data was transmitted          transmitted within DoD internal
      are encrypted using National          Information Processing Standards-140-     through a commercial or wireless           networks was not encrypted;
      Institute of Standards and            2 standard.                               network and NIST cryptography was          however, DCPS traffic
      Technology (NIST)-certified                                                     used to protect information when the       transmitted on non-DoD
      cryptography.                                                                   information transmitted over               networks was encrypted.
                                                                                      commercial or wireless networks.
40    Discretionary access controls are     DISA-Mechanicsburg                        DISA-Mechanicsburg                         No relevant exceptions noted
      a sufficient IA mechanism for         The SSAA requires that access to all      Inspected the user list from the
      connecting DoD information            DoD information systems shall be          Discretionary Access Control (DAC)
      systems operating at the same         based on a demonstrated need-to-know      of all individuals who had direct access
      classification, but with different    and granted in accordance with            to the system software to confirm their
      need-to-know access rules.            applicable laws and DoD 5200.2-R for      access was limited to a need-to-know
                                            background investigations, special        basis.
                                            access and IT position designations and
                                            requirements. An appropriate security
                                            clearance and non-disclosure
                                            agreement are also required for access
                                            to classified information in accordance
                                            with DoD 5200.1-R.
41    Conformance testing that              DISA-Mechanicsburg                        DISA-Mechanicsburg                         No relevant exceptions noted
      includes periodic, unannounced,       Performs monthly vulnerabilities scans.   Inquired with security personnel that
      in-depth monitoring and provides      DCPS and its hardware are reviewed        conformance testing was performed
      for specific penetration testing to   by a FSO SRR.                             that included periodic, unannounced,
      ensure compliance with all                                                      in-depth monitoring and provided for
      vulnerability mitigation                                                        specific penetration testing to confirm
      procedures is planned, scheduled,                                               compliance with all vulnerability
      and conducted.                                                                  mitigation procedures were planned,
                                                                                      scheduled, and conducted.

                                                                                      Inspected documentation produced
                                                                                      from conformance testing to confirm
                                                                                      such testing was performed.
42    All users are warned that they are    DISA-Mechanicsburg All DISA               DISA-Mechanicsburg                         No relevant exceptions noted
      entering a Government                 networks and platforms present a          Observed that the DCPS LPAR system
      information system.                   message to users upon logon, which        parameters were set to display a DoD
                                            warns them that they are entering a       warning banner for initial end user
                                            Government information system, and        connections.



                                                                         63
No.   Control Objective                    Control Activity                           Test Procedure                             Results of Testing
                                           are provided with appropriate privacy
                                           and security notices to include
                                           statements informing them that they
                                           are subject to monitoring, recording
                                           and auditing.
43    Information and DoD                  DISA-Mechanicsburg                         DISA-Mechanicsburg                         Sensitive but unclassified
      information systems that store,      Information on DoD systems that store,     Observed the DECC MECH data                personnel and payroll data
      process, transmit, or display data   process, transit, or display data in any   center, including onsite tape storage      transmitted within DoD internal
      in any form or format that is not    format that is not approved for public     areas, to confirm that labels indicating   networks was not encrypted;
      approved for public release          release complies with DoD policy.          classification level were affixed to all   however, DCPS traffic
      comply with requirements in                                                     computers and storage devices.             transmitted on non-DoD
      policy and guidance documents        Access to all DoD information systems                                                 networks was encrypted.
      and information in transit           is based on a demonstrated need-to-        Inquired with security personnel to
      through a network at the same        know, and granted in accordance with       confirm that information in transit
      classification level, but which      applicable laws and DoD 5200.2-R for       through the network was encrypted.
      must be separated for need-to-       background investigations, special
      know reasons, is encrypted, at a     access and IT position designations and    Inquired with security personnel to
      minimum, with NIST-certified         requirements                               confirm the usage of a network
      cryptography.                                                                   monitoring tool.
44    Connections between DoD              DISA-Mechanicsburg                         DISA-Mechanicsburg                         The firewalls supporting the
      enclaves and the Internet or other   Perimeter firewalls, routers, and          Inspected the system architecture to       access path to DCPS were no
      public or commercial wide area       intrusion detection systems are            confirm that connections between DoD       longer supported by the vendor
      networks require a DMZ and           implemented.                               enclaves and the Internet were             and, therefore, were not
      boundary defense mechanisms to                                                  configured with a DMZ, and boundary        configured with rules. To
      include firewalls and network        DoD information systems shall              defense mechanisms included firewalls      compensate for this lack of
      IDS are deployed at the enclave      regulate remote access and access to       and network IDS were deployed at the       firewall rules, the routers
      boundary.                            the Internet by employing positive         enclave boundary.                          supporting this access path were
                                           technical controls such as proxy                                                      configured to deny all requests
                                           services and screened subnets, also        Inspected system network diagram and       except for items included on
                                           called DMZ, or through systems that        inquired with the SA to confirm that a     their access control list.
                                           are isolated from all other DoD            DMZ and defense mechanisms were
                                           information systems through physical       employed.
                                           means.
                                                                                      Observed the existence of firewalls and
                                                                                      IDSs.
45    Devices that display or output       DISA-Mechanicsburg                         DISA-Mechanicsburg                         No relevant exceptions noted
      classified or sensitive              Devices that display or output             Observed that displays and printers
      information in human-readable        classified information are labeled to      used for sensitive information were
      form (monitors and printers) are     indicate whether classified information    positioned to deter unauthorized



                                                                         64
No.   Control Objective                   Control Activity                          Test Procedure                              Results of Testing
      positioned to deter unauthorized    can be displayed. All devices are         individuals from reading the
      individuals from reading the        located in Approved Open Collateral       information.
      information.                        Storage Areas. Access to these areas is
                                          controlled.

                                          DFAS-Pensacola                            DFAS-Pensacola
                                          Access to systems containing sensitive    Observed that displays and printers
                                          information display warning banners       used for sensitive information were
                                          upon login to warn authorized users;      positioned to deter unauthorized
                                          unauthorized users are denied while       individuals from reading the
                                          attempting to login to the system.        information.

                                          Individuals who print sensitive
                                          information in human-readable form
                                          have localized printers. Each user
                                          outputting sensitive data in human
                                          readable form is accountable for the
                                          security in handling of that
                                          information.
46                                                                                                                              Control objective left
                                                                                                                                intentionally blank
47    DoD information systems             DISA-Mechanicsburg                        DISA-Mechanicsburg                          No relevant exceptions noted
      comply with DoD ports,              DCPS-related ports, protocols, and        Confirmed though inquiry with DISA
      protocols, and services guidance.   services are configured according to      personnel and observed the DCPS
                                          DoD guidance.                             routers ACL that DCPS complied with
                                                                                    DoD ports, protocols, and services
                                                                                    guidance, including all ports, protocols,
                                                                                    and services.

                                                                                    Observed that ports, protocols, and
                                                                                    services were identified and registered.

                                                                                    Inspected the latest SRR report and
                                                                                    remediation of findings of DCPS to
                                                                                    confirm DISA was monitoring
                                                                                    compliance with the DISA STIG.
48    Binary or machine executable        DISA-Mechanicsburg                        DISA-Mechanicsburg                          No relevant exceptions noted
      public domain software products     Public domain software products, and      Inspected a listing of software products
      and other software products with    other software products with limited or   installed on the DCPS mainframe to


                                                                       65
No.   Control Objective                  Control Activity                         Test Procedure                             Results of Testing
      limited or no warranty are not     no warranty, such as those commonly      confirm DCPS does not have binary or
      used in DoD information            known as freeware or shareware, shall    machine executable public domain
      systems.                           only be used in DoD information          software and other software products
                                         systems to meet compelling operational   with limited or no warranty installed on
                                         requirements. Such products shall be     DCPS.
                                         thoroughly assessed for risk and
                                         accepted for use by the responsible
                                         Designated Approving Authority.
      Application Software
      Development and Change
      Control
49    A system development life cycle    There is a defined configuration         DFAS-Pensacola                             No relevant exceptions noted
      methodology (SDLC) has been        management (CM) process in place at      Inspected the Configuration
      implemented and documented.        DFAS-Pensacola. The process is           Management Plan to confirm that it
                                         documented in the SSAA under             was documented.
                                         Appendix S – Change Management
                                         Plan. Included in the plan are:
                                         • Formally documented CM roles,
                                             responsibilities and procedures
                                             including management of IA
                                             information and documentation;
                                         • The detailed role of the CCB
                                             including its roles for reviewing
                                             and approving changes;
                                         • The testing process that all
                                             changes must go through,
                                             including the migration of the
                                             change from the development
                                             region to the testing region, and
                                             the testing region to production;
50    Authorizations for software        DFAS-Pensacola                           DFAS-Pensacola                             No relevant exceptions noted
      modifications are documented       A Configuration Management Plan is       Inspected the full population of
      and maintained. This should also   implemented for software                 modifications occurring during the
      include emergency changes          modifications; contained in the DFAS     audit period to confirm they were
                                         TSO Business Process Handbook.           supported by an approved SCR or
                                                                                  Preliminary Technical Review
                                         All modifications must go through the    authorized by the Program Manager
                                         System Change Request (SCR) process      and/or Software Director, and
                                                                                  supported by a Release Authorization


                                                                     66
No.   Control Objective                     Control Activity                          Test Procedure                              Results of Testing
                                            and receive proper approvals prior to     Report.
                                            implementation, including emergency
                                            changes made during business hours.
                                            Emergency changes which arise during
                                            non-business hours may be
                                            implemented prior to SCR approval;
                                            however, the change is run through the
                                            SCR process at the start of the next
                                            business day.
51    Use of public domain and              DFAS-Pensacola                            DFAS-Pensacola                              No relevant exceptions noted
      personal software is restricted.      Does not allow any use of public          Inspected public domain and personal
                                            domain and/or personal software.          software policy to confirm that
                                            DCPS is on the mainframe; all utilities   personal software restrictions were
                                            needed are on the mainframe (which is     documented.
                                            DISA-driven).
                                                                                      Inspected a listing of installed software
                                                                                      to confirm public and personal
                                                                                      software was not installed on the DCPS
                                                                                      system.
52    Changes are controlled as             DFAS-Pensacola                            DFAS-Pensacola                              The appropriate test
      programs progress through             Testing of changes follows the            Inspected the entire population of          documentation was provided for
      testing to final approval to ensure   approved process outlined in the DFAS     50 modifications to the application         the three major quarterly
      completeness, authorization,          TSO Business Process Handbook prior       software to confirm they were               releases. However, TSO was
      software quality requirements         to implementation.                        supported by appropriate test and           unable to collect and distribute
      and validation methods that are                                                 migration documentation such as             the appropriate test
      focused on the minimization of        A Testing Deficiency Report is issued     System Test Plan, Detailed system           documentation for the
      flawed or malformed software          for SCRs with negative test results and   specifications; and Unit, System and        remaining 47 interim releases
      that can negatively impact            the TDR is routed to the appropriate      Acceptance testing results.                 during our audit fieldwork.
      integrity or availability (e.g.,      individuals. If necessary, an                                                         Management indicated they
      buffer overruns) are specified for    amendment is issued and processes         Inquired with DCPS security personnel       could not provide this
      all software development              through same approval process as an       and confirmed they reviewed security-       documentation due to the
      initiatives.                          SCR.                                      related changes included in DCPS            workload of TSO and the time
                                                                                      Releases.                                   constraints of this audit.

                                                                                      Observed release notes for all major
                                                                                      DCPS production releases that
                                                                                      occurred during the audit period to
                                                                                      confirm release information was
                                                                                      documented and communicated.



                                                                         67
No.   Control Objective                  Control Activity                           Test Procedure                            Results of Testing
53    Distribution and implementation    DFAS-Pensacola                             DFAS-Pensacola                            No relevant exceptions noted
      of new or revised software is      Release Management staff are               Inspected the full population of
      controlled.                        responsible for distribution or            50 modifications and confirmed that
                                         implementation of new or revised           changes were supported by a Release
                                         software.                                  Authorization Report.
54    Programs are labeled and           DFAS-Pensacola                             DFAS-Pensacola                            No relevant exceptions noted
      inventoried.                       Release Management staff is                Inspected the full population of
                                         responsible for ensuring that all          50 modifications to confirm changes
                                         programs are labeled and inventoried       were labeled, assigned an ID, and
                                         within the appropriate library.            inventoried.
55    Access to program libraries is     DFAS-Pensacola                             DFAS-Pensacola                            No relevant exceptions noted
      restricted to appropriate          The System Administrator manages           Observed the procedures performed by
      personnel to ensure that the       access rights to the program libraries     the DCPS Librarian to confirm
      movement of programs and data      and databases through ACF2. The            development and production libraries
      among libraries is controlled.     Database Administrator grants access       were controlled.
                                         to the appropriate
                                         development/production environments        Inspected the access control lists for
                                         through IDMS. IDMS controls                the Production and Development
                                         versioning in both the development and     libraries (directories) to confirm that
                                         production environments.                   only authorized personnel had access.
56    Acquisition or outsourcing of IT   DFAS-Pensacola                             DFAS-Pensacola                            No relevant exceptions noted
      services explicitly addresses      The service level agreement between        Inspected the service level agreement
      Government, service provider,      DFAS and DECC MECH explicitly              contract agreement to confirm it
      and end user IA roles and          states IA roles and responsibilities for   addressed Government, service
      responsibilities.                  both customer and service provider,        provider and end-user IA role and
                                         “Business processes supported by           responsibilities.
                                         private sector information systems and
                                         outsourced information technologies
                                         shall be reviewed and managed relative
                                         to contributions to mission outcomes
                                         and strategic goals and objectives, in
                                         accordance with 40 U.S.C. Sections
                                         1423 and 1451. Data shall be collected
                                         to support reporting and IA
                                         management activities across the
                                         investment life cycle”
57    The acquisition of all IA- and     DFAS-Pensacola                             DFAS-Pensacola                            No relevant exceptions noted
      IA-enabled Government Off-the-     The SSO is responsible for reviewing       Inquired with security personnel to
      Shelf (GOTS) IT products is        and approving all COTS IT products.        confirm they verified NSA evaluation



                                                                       68
No.   Control Objective                  Control Activity                           Test Procedure                            Results of Testing
      limited to products that have                                                 or conducted an evaluation in
      been evaluated by the NSA or in                                               accordance with NSA approval for IA
      accordance with NSA-approved                                                  related products.
      processes.
      System Software Controls
58                                                                                                                            Control objective left
                                                                                                                              intentionally blank
59    Policies and techniques have       DISA-Mechanicsburg                         DISA-Mechanicsburg                        No relevant exceptions noted
      been implemented for using and     Access to the system software is           Inquired with security personnel to
      monitoring use of system           administered based on roles.               confirm root and other privileged
      utilities.                                                                    access were restricted.

                                                                                    Obtained the list of individuals with
                                                                                    root and or privileged access and
                                                                                    inquired with management that root
                                                                                    and privileged access was appropriate
                                                                                    and that the use of these accounts was
                                                                                    logged.

                                                                                    Inspected the policies and procedures
                                                                                    for the monitoring of systems software
                                                                                    and confirmed they exist and were
                                                                                    current.

                                                                                    Inspected a sample of the audit logs
                                                                                    from the DCPS system to confirm that
                                                                                    key personnel review the logs on a
                                                                                    regular basis and that any issues noted
                                                                                    were documented and researched.
60    System software changes are        DISA-Mechanicsburg                         DISA-Mechanicsburg                        System software change testing
      authorized, tested, and approved   Procedures addressing the testing of       Obtained and inspected the change         results were not required to be
      and documented before              patches, upgrades, and new AIS             management policies and procedures        documented and maintained.
      implementation.                    applications are documented. All           for systems software to confirm they      Therefore the audit team was
                                         changes made at DECC MECH are              exist and were current.                   unable to verify that changes
                                         captured in the Change Management                                                    were tested prior to movement
                                         System (Change Management 2000).           Obtained a list of all DCPS system        into the production
                                         Information included in each change        software modifications from October 1,    environment.
                                         record is the requested time and date of   2004 through June 30, 2005 and
                                         implementation, the action to occur,       selected a haphazard sample of            The charter for the local CCB



                                                                       69
No.   Control Objective                 Control Activity                          Test Procedure                           Results of Testing
                                        and justification of the action.          45 system software modifications.        was not approved.

                                        All changes to information systems at     For each modification selected,
                                        DECC MECH are brought before at           obtained the change request document
                                        least one of two CCBs. DISA               and confirmed that it was approved by
                                        headquarters has Executive software       key personnel prior to implementation.
                                        CCB which is responsible for
                                        reviewing all major system changes        Confirmed that each modification was
                                        such as new versions, new software,       tested and the test results were
                                        and the removal of software. There is     approved prior to the modification
                                        also a local CCB at DECC MECH that        being implemented.
                                        meets on a weekly basis. The local
                                        CCB is responsible for reviewing all      Confirmed the modification was
                                        operating system upgrades and fixes.      documented by inspecting the SCR,
                                        The local CCB is also responsible for     System Test Plan; Detailed System
                                        alerting the customer to the change and   Specifications; and Unit, System and
                                        obtaining the customer approval before    Acceptance testing results.
                                        proceeding. Also, the local CCB is
                                        responsible for maintaining the change    Observed that there was a charter in
                                        control records.                          place for the CCB.

                                        The DISA Executive Software CCB
                                        consists of representative of DISA
                                        management as well as all the DISA-
                                        DECCs. The DECC MECH local CCB
                                        consists of all department heads and
                                        the Information Assurance Manager.
61    Good engineering practices with   DISA-Mechanicsburg Implemented            DISA-Mechanicsburg                       The firewalls supporting the
      regards to the integrity          COTS software that scans incoming         Confirmed through inquiry that a         access path to DCPS were no
      mechanisms of COTS, GOTS          and outgoing files to insure the          controlled interface was used for        longer supported by the vendor
      and custom developed solutions    integrity of those files.                 interconnections among the DoD           and therefore were not
      are implemented for incoming                                                information systems that were            configured with rules. To
      and outgoing files.                                                         connected to DCPS.                       compensate for this lack of
                                                                                                                           firewall rules, the routers
                                                                                  Observed the existence of ACL, IDS,      supporting this access path were
                                                                                  firewalls, encryption, and network       configured to deny all requests
                                                                                  monitoring.                              except for items included on
                                                                                                                           their access control list.
                                                                                  Confirmed through corroborative



                                                                       70
No.   Control Objective                Control Activity                        Test Procedure                              Results of Testing
                                                                               inquiry that interface inputs were
                                                                               automatically validated by the system
                                                                               for missing information, format,
                                                                               consistency and reasonableness.

                                                                               Observed system batch files of
                                                                               interface inputs for control totals and
                                                                               line counts.
      Segregation of Duties
62    Incompatible duties have been    DFAS-Pensacola                          DFAS-Pensacola                              No relevant exceptions noted
      identified and policies          Developed distinct system support       Inspected the organizational chart and
      implemented to segregate these   functions to ensure there is adequate   the job descriptions for the positions at
      duties.                          segregation of duties.                  DFAS-Pensacola in relation to DCPS
                                                                               and confirmed that there was
                                                                               appropriate segregation of duties and
                                                                               that incompatible duties did not exist.

                                                                               Inquired with management and
                                                                               inspected the organizational chart to
                                                                               confirm that distinct system support
                                                                               functions were performed by different
                                                                               individuals, including the following:

                                                                               •   IS management,
                                                                               •   System design,
                                                                               •   Application programming,
                                                                               •   Systems programming,
                                                                               •   Quality assurance/testing,
                                                                               •   Library management/change
                                                                                   management,
                                                                               •   Computer operations,
                                                                               •   Production control and scheduling,
                                                                               •   Data control,
                                                                               •   Data security,
                                                                               •   Data administration, and
                                                                               •   Network Administration.




                                                                     71
No.   Control Objective                    Control Activity                           Test Procedure                           Results of Testing
63    System management job                DFAS-Pensacola                             DFAS-Pensacola                           No relevant exceptions noted
      descriptions have been               Developed position descriptions for        Inspected the job descriptions for the
      documented.                          distinct system support positions.         personnel who support DCPS.


64    System management employees          DFAS-Pensacola                             DFAS-Pensacola                           No relevant exceptions noted
      understand their duties and          Personnel receive and sign their           Selected a sample of employees and
      responsibilities.                    position descriptions to confirm that      confirmed through inquiry that they
                                           they are aware of their proposed duties.   understood their duties and
                                                                                      responsibilities.

                                                                                      Observed documentation and
                                                                                      confirmed that employees had signed
                                                                                      position descriptions.
65    Management reviews                   DFAS-Pensacola                             DFAS-Pensacola TSO                       No relevant exceptions noted
      effectiveness of control             Management will periodically review        Inspected the DCPS Systems Security
      techniques.                          and update security policies and           Policy, Security Requirements, and
                                           procedures.                                Certification Test and Evaluation Plan
                                                                                      and Procedures to confirm that each
                                                                                      was periodically updated.
66    Formal procedures guide system       DFAS-Pensacola                             DFAS-Pensacola                           No relevant exceptions noted
      management personnel in              Formal SOPs for personnel who              Inspected SOPs used by personnel for
      performing their duties.             support DCPS.                              performance of their job duties in
                                                                                      respect to DCPS
67    Access procedures enforce the        DISA-Mechanicsburg and DFAS-               DISA-Mechanicsburg                       No relevant exceptions noted
      principles of separation of duties   Pensacola                                  Inspected the access control policies
      and “least privilege.”               Privilege accounts are only used by        and procedures for compliance with the
                                           DISA and DCPS personnel to                 principles of separation of duties and
                                           create/modify/delete user accounts.        “least privilege.”

                                                                                      DFAS-Pensacola
                                                                                      Inspected the access control policies
                                                                                      and procedures for compliance with the
                                                                                      principles of separation of duties and
                                                                                      “least privilege.”
68                                                                                                                             Control objective left
                                                                                                                               intentionally blank




                                                                         72
Section IV: Supplemental Information Provided by DFAS and
                           DISA




                           73
IV. Supplemental Information Provided by DFAS and DISA
Introduction

This section has been prepared by DFAS and DISA and is included to provide user
organizations with information DFAS and DISA believes will be of interest to such
organizations; however, is not covered within the scope or control objectives established
for the SAS 70 review. Specifically included is a summary of procedures that DFAS and
DISA have put into place to enable recovery from a disaster affecting either DFAS
TSOPE or DECC MECH.

This information has not been subjected to the procedures applied to the
examination of the description of controls presented in Sections II and III of this
report, and accordingly, the DoD OIG expresses no opinion regarding the
completeness and accuracy of this information.

TSOPE Specific Business Continuity Plans

The DCPS production support Continuity of Operations Plan (COOP) provides an action
plan to be implemented when there is a disaster or impending threat that would render
DCPS production support inoperable (e.g., hurricane, damage to TSOPE facilities due to
fire, etc.). This plan is evaluated and updated, accordingly, on an annual basis. If an
impending threat or event occurs, production support control for the DCPS production
support is transferred to an alternate-processing site, currently defined to be the Defense
Ammunition Center Huntsville, AL. Contained in the detailed COOP are names of
DCPS staff members who will serve as a pool of resources to be mobilized to execute the
plan and a list of documentation and supplies that are necessary to support the mobilized
team.

Team members are comprised of DCPS development staff members across many
divisions and branches. TSOPE designates two members of the management team to be
responsible for COOP execution. One is mobilized with the team and is responsible for
team activities and communication with TSOPE while deployed to the COOP recovery
site. The other serves as the team’s liaison at TSOPE and is responsible to relay current
status, current area weather conditions, and other pertinent information to the mobilized
team. The team is further divided into two teams, with each covering a 12-hour shift.
Team leaders are appointed for the respective shift teams. Each step included in planning
and executing the COOP is coordinated with full cooperation and involvement by the
DCPS project management staff. Although this plan works for any type of disaster where
production support becomes inoperable, it has been executed several times in the past few
years during impending disastrous weather conditions, such as hurricanes.

DECC MECH Business Continuity Plans

To accommodate a major disaster at any major DISA processing center, DISA has
established the DISA Continuity and Test Facility at Slidell, LA. This facility is
equipped with computational, Direct Access Storage Devices, and telecommunications
resources sized to provide a fully functional host site with the capacity to support a major
disaster at any DISA processing center. The COOP support agreement between DFAS,
as the customer, and DISA, as the provider of processing systems and communications
services, provides for restoring host site processing in the event of a major disaster and
the timely resolution of problems during other disruptions that adversely affect DCPS


                                             75
processing. The plan, as it relates to DCPS, details data restoration procedures for the
MZF OS/390 operating system, the DCPS Integrated Database Management System, and
related mid-tier servers and communication devices. Backup tapes containing the
incremental daily and the complete weekly backups are rotated offsite to the Processing
Element Chambersburg for storage on a predetermined schedule.

The Crisis Management Team at DECC MECH is responsible for declaring a disaster has
occurred and initiating the Business Continuity Plan. The Crisis Management Team will
then activate the following response teams: Communications Team, Recovery
Coordination Team, Site Recovery Team, and the Crisis Support Team. Each team has a
specific set of responsibilities defined in the Business Continuity Plan. The contact
information for each individual on each team is also included in the Business Continuity
Plan. The plan is required to be tested on an annual basis. TSOPE personnel participate
in the yearly COOP test to ensure that the process works correctly and documentation is
updated appropriately.




                                           76
Acronyms and Abbreviations


ACF2        Access Control Facility 2
ACL         Access Control List
AIS         Automated Information System
CAC         Common Access Card
CCB         Configuration Control Board
CM          Configuration Management
CMIS        Change Management Information System
COOP        Continuity of Operations Plan
COTS        Commercial off-the shelf
CSR         Customer Service Representatives
DAC         Discretionary Access Control
DAPS        Defense Automated Printing Service
DCPS        Defense Civilian Pay System
DECC        Defense Enterprise Computing Center
DECC MECH   Defense Enterprise Computing Center Mechanicsburg
DFAS        Defense Finance and Accounting Service
DISA        Defense Information Systems Agency
DITSCAP     Department of Defense Information Technology Security
            Certification and Accreditation Process
DMI         Desktop Management Initiative
DMZ         Demilitarized Zones
DoD         Department of Defense
DoDD        Department of Defense Directive
DoDI        Department of Defense Instruction
DOD OIG     Department of Defense Office of Inspector General
DOE         Department of Energy
DPL         Director’s Policy Letter
EOP         Executive Office of the President
FSO         Field Security Operations
GOTS        Government off –the shelf
HHS         Department of Health and Human Service
IAVM        Information Assurance Vulnerability Management
IA          Information Assurance
ID          Identification
IP          Internet Protocol
IDMS        Integrated Database Management System
IDS         Intrusion Detection System
ISO         Information Security Officer



                                 77
ISS       Information Security Scanner
ISSO      Information Systems Security Officer
IT        Information Technology
LAN       Local Area Network
LPAR      Logical Partition
M&CPS     Military & Civilian Pay Services
MAC       Mission Assurance Category
MOA       Memorandum of Agreement
NIPRNET   Non-Classified Internet Protocol Router Network
NIST      National Institute of Standards and Technology
NSA       National Security Agency
OIG       Office of the Inspector General
OLQ       Online Queries
OS        Operating System
SA        System Administrator
SAAR      Systems Access Authorization Request
SCR       System Change Request
SDLC      System Development Life Cycle
SMC       System Management Center
SMO       System Management Office
SNA       Systems Network Architecture
SOP       Standard Operating Procedures
SRR       Security Readiness Review
SRRDB     Security Readiness Review Database
SSAA      System Security Authorization Agreement
SSN       Social Security Number
SSO       System Support Office
STIG      Security Technical Implementation Guide
TASO      Terminal Area Security Officer
TSO       Technology Services Organization
TSOPE     Technology Services Engineering Organization in Pensacola
TSP       Thrift Savings Plan
VMS       Vulnerability Management System
VPN       Virtual Private Network




                                78
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, National Security Agency
Director, Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accountability Office

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations




                                          79
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
   Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
   and the Census, Committee on Government Reform




                                        80
Team Members
The Defense Financial Auditing Service, Department of Defense Office of
Inspector General, in conjunction with contract auditors from Acuity Consulting,
Inc., produced this report. Personnel from the Technical Assessment Division and
Quantitative Methods Division, Department of Defense Office of Inspector
General, also contributed to the report.

Paul J. Granetto
Patricia A. Marsh
Addie M. Beima
Michael Perkins
Kenneth H. Stavenjord
Frank C. Sonsini
Sean J. Keaney
Anh H. Tran
Charles S. Dekle
Ernest G. Fine
Travis R. Schenck
Mary A. Hoover
Joey S. Sparks
Nicholas Drotar, Jr
Alberto J. Calimano-Colon
Jennifer K. Thorson
